<html>
<title> - THE PRESIDENT'S PROPOSED FY 2007 BUDGET FOR THE DEPARTMENT OF HOMELAND SECURITY:</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
THE PRESIDENT'S PROPOSED FY 2007 BUDGET FOR THE DEPARTMENT OF HOMELAND 
                               SECURITY:

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2006

                               __________

                           Serial No. 109-65

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
36-324                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                  (II)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, a Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................     2
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    31
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    27
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    45
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    24
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    47
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada:
  Oral Statement.................................................    21
  Opening Statement..............................................    21
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    49
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    44
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    51
The Honorable John Linder, a Representative in Congress From the 
  State Georgia..................................................    17
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................    53
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    39
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    33
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    19
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State New Jersey......................................    35
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    41
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    29
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    25
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    48
The Honorable Ginnie Brown-Waite, a Representative in Congress 
  From the State of Florida......................................    37

                                Witness

The Honorable Michael Chertoff, Secretary, United States 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6


                  MAINTAINING VIGILANCE AND IMPROVING
                    MISSION PERFORMANCE IN SECURING
                              THE HOMELAND

                              ----------                              


                      Thursday, February 16, 2006

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:32 a.m., in Room 
311, Cannon House Office Building, Hon. Peter King [chairman of 
the committee] presiding.
    Present: Representatives King, Linder, Lungren, Gibbons, 
Simmons, Rogers, Pearce, Reichert, McCaul, Dent, Brown-Waite, 
Thompson, Sanchez, Markey, Dicks, Harman, DeFazio, Lowey, 
Norton, Lofgren, Jackson-Lee, Pascrell, Christensen, Etheridge, 
Langevin, and Meek.
    Chairman King. [Presiding.] The Committee on Homeland 
Security will come to order. The committee is meeting today to 
hear testimony on the president's proposed fiscal year 2007 
budget for the Department of Homeland Security.
    I want to welcome Secretary Chertoff to the hearing. We 
appreciate him giving of his time and the cooperation he has 
given us since he became secretary. I have been fortunate to 
know Secretary Chertoff for a number of years, certainly his 
activities back in the state of New York and New Jersey, and 
also in the Senate committee.
    I know the dedication he brings to this job and the sense 
of purpose he has. Anyone who would give up a lifetime job to 
take this makes me wonder a bit about you. But seriously, I 
want to thank you for your service to your country, especially 
coming from New York and the Northeast, realizing what happened 
on 9/11. I do not think there is any job more important in 
government than yours. I know the extent to which you have 
dedicated yourself to that.
    The fact there have been no attacks since 9/11 I think is a 
tribute that our plans are in place at the department. Also, we 
do live in a very, very dangerous world, and we also realize 
that. Also, we realize with the situation with Katrina how 
there is much room for improvement. I know you are attempting 
to address that and you will discuss that today.
    I know you made some first steps with your speech last 
week, and there was the Davis report yesterday. The committee 
will be looking for how you really intend to effectively 
address FEMA and what can be done if God forbid there was 
another Katrina-type event in the future.
    As far as the budget itself for this year, there are 
certain parts of it that I think are very worthwhile. We have a 
13 percent increase in the UASI funding, which to me goes a 
long way toward what we have been trying to do, and that is to 
have anti-terror funding based on threat and risk. That, I 
believe, is a significant step in that direction.
    Also, this committee adopted by voice vote our portion of 
the immigration and border security bill last fall. One of the 
key components of that was calling for more border patrol 
agents, calling for more detention facilities.
    I see a 29 percent increase as far as increase in the 
border patrol, with 1,500 new agents, 6,700 new detention beds. 
All of that is a very, very significant step in the right 
direction. We want to work with you on that to make sure that 
that works. If we are going to effectively end the catch-and-
release and also bring about expedited removal, we have to have 
those agents. We have to have them in place. We have to have 
the detention facilities. So I commend you for that.
    I know there will be other questions here about funding 
that has been cut back or not increased enough. My colleagues 
will certainly have questions on that.
    I would also like to bring up one point, which I know we 
cannot address in open session. That is the issue of the United 
Arab Emirates company which is going to be in charge of ports 
at a number of our major cities. I have raised concerns at the 
White House about this. I have spoken to Mr. Allen, the chief 
intelligence officer, on that. I would like to be able to 
discuss it with you in a more secure setting, but I do have 
certain concerns over that that I think should be addressed.
    With that, I am going to keep my remarks short. I hope we 
can set a tone for the day because there will be many members 
here in the course of the day. I want to give everyone the 
opportunity to ask questions. I have spoken to the ranking 
member on this.
    We are going to strictly enforce the 5-minute rule in 
fairness to all of those. Having sat down in the lower seats 
for a number of years, I know how unfortunate it is and 
unpleasant it is when the time runs out and you do not have a 
chance to ask questions because people in the top row maybe 
dominate the scene too much. I am going to do all I can to 
enforce the 5-minute rule to make sure we allow as many members 
as possible to ask questions.
    With that, I recognize the distinguished member from 
Mississippi, the Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary.
    This is the third time our panel has had an opportunity to 
have you before us at a hearing. The last time you were before 
us was July, and you came to unveil your plan to reorganize the 
department. We hope to see you a little more this year.
    On a related note, in early November you and I met to 
discuss Hurricane Katrina and the department's efforts. At that 
meeting you suggested that you would be interested in meeting 
once a month behind closed doors for an informal and off-the-
record discussion with committee members. I put in several 
inquiries to your department, to your staff, and have yet to 
receive any response. I hope you will give us some response 
before this committee hearing is adjourned today.
    However, to start off with today, there is a question that 
people back home in Mississippi want answered. Where is the 
Department of Homeland Security? I do not mean to be flip, but 
it is sort of like looking for Waldo, only Waldo was a little 
bit easier to find. I have heard so many stories back home of a 
detached and inept Department of Homeland Security. I have had 
a hard time telling them that the department is doing the right 
thing.
    It is especially hard when I see that you continue to rip 
apart FEMA and move its preparedness functions, even when 
experts and career emergency managers say this is the wrong 
thing to do. Today, confidence in FEMA and by extension the 
Department of Homeland Security is at an all-time low. Local 
communities, emergency managers and first responders have lost 
faith, Mr. Secretary.
    The department's budget, which you are here today to 
defend, drastically cuts money that should be going to the 
cops, firefighters and EMTs on the frontline on the war on 
terror here at home. This does little to help you gain their 
trust. As the secretary of Homeland Security, the buck stops 
with you on the budget, on FEMA's weaknesses, and on the 
department's dismal performance during last year's hurricanes.
    Clark Kent Ervin, the department's former inspector 
general, said recently that last year's hurricane represented a 
real-life rehearsal of sorts, and that response by your 
department suggested that the nation is not ready to handle a 
terrorist attack of similar circumstances.
    I agree with him that this is a devastating indictment on 
this department's performance 4 years after 9/11. This week, 
several of us in this room issued a historical analysis of 
FEMA's performance through the years. Our review demonstrates 
the need for fundamental changes to how the department and FEMA 
does business. FEMA needs a leader with substantial experience 
in emergency management. The FEMA director needs legitimate 
direct access to the president during an incident of national 
significance. And all the elements of the emergency management 
cycle within FEMA must be unified.
    I recognize that making these operational changes may be 
difficult and even embarrassing to you, given how strongly you 
promoted your second-stage review. But they must be done to 
prevent future massive failings by the government. Millions of 
lives are at stake and America cannot afford to have these 
lapses you keep talking about, Mr. Secretary.
    Mr. Secretary, I look forward to hearing your testimony 
about the department's fiscal year 2007 budget priorities. As I 
noted earlier, the cuts to first responders and local community 
grants and training is a concern of mine. It also continues to 
leave glaring gaps in our nation's borders, ports, mass 
transit, aviation and critical infrastructure security, among 
other things.
    I look forward to hearing your testimony, Mr. Secretary.
    And I yield back.
    Chairman King. Thank you, Mr. Thompson.
    Let me remind members that under our committee rules, 
opening statements are limited to the chair and Ranking Member. 
However, all members are entitled to submit written opening 
remarks for the record. Due to our time constraints today, we 
need to move immediately to testimony from the witness.
    The chairman now recognizes the distinguished secretary of 
homeland security, Michael Chertoff. Mr. Chertoff?

    STATEMENT OF THE HONORABLE MICHAEL CHERTOFF, SECRETARY, 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Mr. Chairman.
    Thank you, Ranking Member Thompson.
    I am delighted to be here. It is actually 1 year after the 
first anniversary of my having been confirmed and sworn into 
the job. Mr. Chairman, when you talk about my having given up a 
lifetime job for this, I want to say I feel like I have lived a 
lifetime in the last year.
    I am also pleased to be here in this magnificent new room, 
which I gather will be the permanent home of the committee.
    Congressman Thompson, I have asked my staff to contact your 
staff to set up a time for me to come in and chat with you. I 
would like to be able on a regular basis to discuss informally 
some of the things we are doing. I think there is value to 
doing that.
    Let me give you a little bit of a brief overview of what we 
have done and where we are with this budget. I ask that my full 
testimony be accepted for the record.
    Chairman King. Without objection.
    Secretary Chertoff. Let me say first of all, this is a 
strong budget. It is a budget which reflects increases that 
show the president's commitment and the administration's 
commitment to all the elements of our critical mission.
    There is a 6 percent increase in funding over the current 
fiscal year; a 36 percent increase in gross discretionary 
function since 2003; and triple the amount of non-defense 
homeland security spending government-wide since 2001. We 
strengthened initiatives to protect our borders, increase 
preparedness, expand intelligence-gathering and sharing, and 
improve maritime and transportation security.
    In the last year, we accomplished some very significant 
changes organizationally, which I will be very happy to discuss 
here. We rolled out a secure border initiative, the first time 
we have had an integrated strategy for dealing with the issue 
of controlling illegal entry into our borders. We deployed US-
VISIT as a biometric entry system at all of our permanent ports 
of entry. We awarded $3 billion in grants to state and local 
governments. The Coast Guard rescued over 33,000 people after 
Katrina and Rita. Operation Community Shield yielded 1,600 gang 
arrests, and we cut our immigration backlog in Citizenship and 
Immigration Services by 2.8 million.
    Where are we going from here? Well, there are several 
critical priorities that this budget addresses. The first is 
preparedness. I can talk at greater length about why it is that 
we have located in the line preparedness in a single 
directorate.
    The short answer is this, as I told this committee in July, 
a month before Katrina, having looked at the state of 
preparedness as it was at that point, we were not as prepared 
as we needed to be. The responsibility had been lodged in a 
directorate which had both preparedness and FEMA under one 
person. The answer is that preparedness got very substantially 
neglected. In fact, that was the structure we had going into 
Katrina. The changes that I announced in 2SR did not did not 
take effect until October 1.
    I think that we need to have an all-hazards, total-spectrum 
approach to preparedness. That means prevention, protection and 
response. Too often, I see that we have a tendency in 
government to constantly fight the last battle. There are 
critics who say after 9/11, we were focused only on terrorism. 
There are people now who see Katrina as a suggestion we ought 
to focus on hurricanes. We have to do all of these things. We 
have to look at all of the threats.
    I want to make sure that our efforts at preparedness 
adequately focus on response, but also adequately focus on 
prevention, law enforcement and intelligence-sharing as well. 
The only way to do that is to put under a very experienced 
person the responsibility for a comprehensive view of 
preparedness.
    I am pleased to say that the president nominated and the 
Senate confirmed as undersecretary of preparedness, George 
Foresman, who spent 30 years as a homeland security adviser and 
emergency manager, working his way up from ground level, and 
serving most recently under Governor Warner of Virginia as 
homeland security adviser.
    I am pleased to say we brought in a chief medical officer, 
a distinguished former head of the National Highway 
Transportation Safety Administration, an emergency room doctor, 
to give us the kind of capability to prepare in an area where 
we have been under-prepared, which is biological and medical 
considerations.
    We have put $50 million into a national preparedness 
integration program. Step one of that program was to conduct a 
comprehensive review of evacuation and emergency planning in 
every state of the union. We did that pursuant to Congress's 
mandate. Congress demanded that we come back on February 10 
with a preliminary report. We met that deadline.
    We produced that report. That report contains self-
assessments by the states of where they are. You will see some 
greens. You will see some yellows. You will see some reds. As 
we speak, we have people going out now and working with the 
states to validate their assessments and to see if we can bring 
up their level of preparedness.
    Border security, I am pleased to say this budget is one 
which has a very, very strong infusion of resources for border 
security, but not a willy-nilly, throw-money-at-the-problem, 
but a well thought-out, comprehensive plan. It includes a 
little over $458 million for 1,500 new border patrol agents, 
which will get us up to a 42 percent increase since 9/11. There 
is $100 million for next-generation border technology, which we 
are going to acquire in an integrated fashion as part of the 
strategy, and not merely by going out and buying a lot of 
gizmos.
    There is $30 million to continue the San Diego border 
infrastructure system; money for 6,700 additional detention 
beds to let us achieve our goal of catch-and-return for those 
caught at the border. There is $135 million to expand 
employment verification, which will give us the ability to 
allow employers to check on the status of their employees to 
see that they are in fact legal. Once we give them the tools to 
comply with the law, we will then hold them accountable very 
strictly to reach that compliance.
    Additionally, almost $400 million is for US-VISIT, 
including $60 million for IDENT-IAFIS integration. In that 
regard, I am pleased to say we have committed to moving to a 
10-print enrollment system under US-VISIT for first-time 
visitors to the United States, which I think will be a big step 
forward in security.
    In terms of transportation security, we have $4.7 billion 
requested for aviation security, including almost $700 million 
for explosive detection systems. We have $30 million for 
enhanced cargo radiography screening at ports of entry; $157 
million for radiation portal monitor acquisition; almost $1 
billion for Coast Guard Deepwater, and for a maritime security 
response team which will give us essentially the ability to use 
special operations Coast Guard personnel in situations where we 
have a maritime risk.
    Finally, although the elements of our intelligence budget 
are classified, in general our intelligence and operation 
account has been significantly increased, representing the 
importance of integrating all of our functions. We have also 
put in considerable additional resources for resource 
management.
    Those are the general outlines. I look forward to answering 
questions on particular items and to working with this 
committee to make this budget a reality in the next year.
    Thank you.
    [The statement of Secretary Chertoff follows:]

          Prepared Statement of the Honorable Michael Chertoff

    Mr. Chairman, Congressman Thompson, and Members of the Committee:
    Before beginning to outline our FY 2007 budget request, I want to 
thank you for the strong support you showed for the Department in the 
two full budget cycles since it was fully established in March 2003. 
This is my first full budget cycle and I am honored and pleased to 
appear before the Committee to present President Bush's FY 2007 budget 
for the Department of Homeland Security (DHS).

    Our Key Accomplishments
    As DHS approaches its third anniversary on March 1, 2006, creating 
one national integrated strategy to fight the war on terror, through 
awareness, prevention, protection, response, and recovery remains the 
key focus of its vision and mission. Since inception, the Department 
has steadily progressed in its efforts to vigorously protect America's 
homeland. Since 2001, the Administration:
    <bullet> Has increased annual spending on Government-wide non-
defense homeland security by 350 percent, more than tripling spending 
devoted to homeland security;
    <bullet> Created the Department of Homeland Security by merging 22 
separate agencies and programs into a cohesive department;
    <bullet> Restructured the agencies that handle immigration and 
border security issues. Customs and Border Protection (CBP) has Port of 
Entry inspectors and Border Patrol agents along the border. Immigration 
and Customs Enforcement (ICE) enforces immigration laws and detains 
those aliens here illegally. U.S. Citizenship and Immigration Services 
(USCIS) administers a wide variety of immigration benefits and services 
within the United States;
    <bullet> Established the Transportation Security Administration 
(TSA) to improve aviation security and other modes of transportation 
security nationwide. TSA hired a screener workforce and deployed 
sufficient technology to electronically screen 100 percent of passenger 
and checked baggage;
    <bullet> Created a Domestic Nuclear Detection Office (DNDO) to 
detect, identify, and track down the origins of nuclear and 
radiological materials; and
    <bullet> Provided the Department nearly $18 billion for State, 
local, and tribal governments to enhance their preparedness for a range 
of hazards, including $14 billion for terrorism and other catastrophic 
events.
    When I arrived at the Department in 2005, I initiated a Second 
Stage Review (2SR) to assess whether DHS' policies, operations, and 
organizational structure were properly aligned to maximize mission 
performance. The implementation of 2SR instituted a fundamental reform 
of policies and procedures critical to achieving the mission of the 
Department. The Department also conquered many unique challenges, 
making significant strides protecting vital infrastructure and assets; 
preventing security breaches; ensuring safe travel and trade across our 
borders; protecting privacy and civil liberties; and expanding critical 
partnerships at every level.
    In the last year, we have made great strides in the area of 
prevention and preparedness. Our key accomplishments include:

TSA Moves to a Risk-Based, Threat-Managed Security Approach. Employing 
TSA-certified explosives detection canine teams, piloting behavioral 
pattern recognition analysis at 10 airports, and through a nation-wide 
modification of the prohibited items list, TSA has increased its 
ability to identify and prevent terrorist threats to the nation and 
enhance aviation security.

Largest Terrorist Attack Drill in History Performed. DHS conducted the 
third Top Officials (TOPOFF) exercise since it was established. The 
week-long exercise, which included international participation from 
Canada and the United Kingdom, was the largest full-scale terrorist 
simulated exercise in the nation's history. Collectively, the 
Department, through its Office of Grants and Training, has conducted 
more than 400 exercises at the national, state, and local level.

A Joint Strategy for More Effective and Secure Travel is Being 
Implemented. DHS and the Department of State launched the Rice/Chertoff 
initiatives in 2005 to improve traveler facilitation and security. The 
three-pronged effort will strengthen security screening, produce secure 
travel documents, and facilitate the processing of legitimate 
international visitors. Key elements of this effort include efforts to 
make visa processing more efficient, creation of a one-stop redress 
process for travelers, introduction of biometrically enhanced 
passports--or ``e-Passports'', better information sharing between 
federal agencies, and a new frequent travel card for use by U.S. 
citizens at the land ports called ``PASS'' (People, Access, Security, 
Service). Each action will ensure that the quality of the travel 
experience is enhanced, while increasing security.

Over $3 Billion Awarded to State and Local Governments. DHS awarded 
more than $3 billion in grants, training, and technical assistance to 
state and local governments to support various prevention, protection 
and response initiatives.

Standard First Responder Training Developed. DHS established a National 
Incident Management System (NIMS) standard curriculum to ensure first 
responder training is widely available and consistent among all 
training providers. More than 725,000 first responders completed NIMS 
training nationwide.

Counterterrorism Training. DHS provided counterterrorism training to 
more than 1.2 million emergency response personnel from across the 
country on a range of incident response issues, including incident 
management, unified command, and public works protection/response, and 
training on weapons of mass destruction.

Secure Data Sharing Network Established. DHS deployed the first phase 
of the Homeland Secure Data Network (HSDN) to 56 governmental sites, 
providing a unified system and program that enables the sharing and 
protection of secret-level data between our federal partners.

Sharing Intelligence Information. The Office of Intelligence and 
Analysis provided state and local governments and the private sector 
with more than 1,260 intelligence information products on threat 
information and suggested protective measures.

Secret Service Operation Taps Network to Arrest 28 Globally. U.S. 
Secret Service conducted ``Operation Firewall,'' in which the Secret 
Service became the first agency ever to execute a Title III wire tap on 
an entire computer network. This global operation resulted in 28 
arrests in eight states and six foreign countries. These suspects stole 
nearly 1.7 million credit card numbers.

Community and Individual Preparedness. The Department's Ready campaign, 
one of the most successful campaigns in the Ad Council history, topped 
$465 million in cumulative donated media support and more than 1.9 
billion web site hits. The Department's Citizen Corps program, which 
promotes grassroots community preparedness, expanded its service to 
more than 69 percent of the total population to ensure that citizens 
are prepared and capable of handling disasters or threats of all kinds.
    The hurricanes last fall stretched our nation's resources and 
forced us to reexamine our processes. We still however, saw our first 
responders and relief personnel do remarkable things to assist our 
fellow citizens.

Over 33,000 Rescued by U.S. Coast Guard. In the wake of Hurricanes 
Katrina and Rita, the Coast Guard rescued over 33,000 people in search 
and rescue operations. Coast Guard men and women employed their 
Continuity of Operations Plans and demonstrated deep commitment to the 
missions of search and rescue, protection of natural resources, and 
restoration of a safe, efficient marine transportation system.

More than 23,000 Victims Airlifted from New Orleans Airport. More than 
700 transportation security officers and federal air marshals helped 
evacuate more than 23,000 victims at Louis Armstrong New Orleans 
International Airport.

$5.7 Billion in Federal Aid Distributed. FEMA distributed over $5.7 
billion in federal aid to more than 1.4 million households to help pay 
for housing assistance, food, clothing, home repair and other 
essentials.

$12 Billion in Claims Distributed. FEMA's National Flood Insurance 
program paid over $12 billion in claims from Hurricanes Katrina, Rita, 
and Wilma, with an estimated $10 billion in additional claims to be 
paid over the next few months.
    In the past year, we have also strengthened our borders and 
interior enforcement of our immigration laws, expanded partnerships 
with our neighbors, and increased our use of emerging technologies to 
assist our efforts.

Secure Border Initiative Success. In support of a comprehensive 
strategy to control the border and enforce immigration laws, DHS 
adopted a policy to replace the practice of catching and releasing 
aliens with a ``Catch and Return'' policy. Expedited Removal (ER) has 
been expanded along our entire land border as well as the number of 
countries with nationals subject to ER.
    DHS adopted a goal to cut ER detention time in half to speed alien 
removals, and the frequency of deportation flights has increased. 
Litigation barriers preventing San Diego fence completion have been 
removed. A process is also well underway to seek and select a contract 
integrator to implement a comprehensive border protection program plan 
using technology, staff, and other assets.

Successful Counter Drug Operations. Efforts by CBP and ICE to secure 
the nation's borders have yielded significant positive results in 
stopping the flow of illegal drugs into the United States. In the most 
recently completed fiscal year, CBP reported seizing nearly 273,000 lbs 
of cocaine and more than 1.9 million pounds of marijuana. In addition, 
United States Coast Guard and Customs Air and Marine Operations' 
efforts to support counter drug operations in the transit zone played a 
key role in the seizure of a record 232 metric tons of cocaine by the 
United States.

 Arizona Border Control Initiative Bolstered Resources in Tucson 
Corridor. The second phase of this successful initiative included an 
additional 534 Border Patrol agents permanently assigned to the Arizona 
border, a 25 percent increase. These agents were supplemented by 200 
agents and 23 aircraft temporarily assigned to the Tucson sector. The 
initiative coupled with Operation ICE Storm, a human smuggling 
initiative, resulted in more than 350 smugglers prosecuted in total, 
millions in illicit profits seized and a significant decrease in 
homicides according to local authorities.

Security and Prosperity Partnership Creates Common Security Approach. 
The United States, Canada and Mexico entered into this trilateral 
partnership to establish common approaches to emergency response, 
improving aviation, maritime, and border security, enhancing 
intelligence sharing, and facilitating the legitimate flow of people 
and cargo at our shared borders.

Operation Community Shield Nets 1,600 Gang Members. ICE introduced this 
unprecedented partnership with law enforcement at all levels around the 
country to combat dangerous criminal gangs like MS-13. In less than a 
year, ICE agents arrested more than 1,600 illegal immigrant gang 
members, who now face criminal prosecutions or are in removal 
proceedings.

Immigration Processing Backlog Cut by 2.8 million. USCIS reduced the 
backlog of applications for immigration services and benefits from 3.8 
million cases in January 2004 to fewer than one million in December 
2005.

US-VISIT Biometric Entry System Expanded. US-VISIT implemented the 
biometric entry portion of the US-VISIT system at 115 airports, 14 
seaports and 154 land ports of entry. As of December 31, 2005, US-VISIT 
processed more than 44 million foreign visitors and detected 950 
individuals with a criminal history or immigration violations.

Passport Requirements Strengthened. As part of a multi-layered approach 
to increasing the security of our citizens and visitors by helping to 
ensure the integrity of their travel documents, DHS imposed 
requirements establishing that all Visa Waiver Program travelers must 
have a machine-readable passport to enter the United States. Visa 
Waiver Program countries are now also required to produce new passports 
with digital photographs.

Global Customs Security Standards Adopted. CBP led the World Customs 
Organization to unanimously adopt a framework of standards to secure 
and facilitate global trade. CBP's Container Security Initiative (CSI), 
which identifies and screens high-risk maritime cargo containers before 
they are loaded on vessels to the U.S., is currently operational at 42 
foreign ports worldwide. Approximately 75 percent of cargo containers 
headed to the U.S. originate in or are shipped from CSI ports.

                   Continuing Our Progress in FY 2007

    In accordance with the premise of 2SR and to build on these 
accomplishments, the FY 2007 budget proposal for the Department is 
driven by a mission and risk-based approach to allocating the 
Department's resources, requesting $42.7 billion in funding, an 
increase of 6 percent over FY 2006. The Department's FY 2007 gross 
discretionary budget is $35.4 billion, also an increase of 6 percent 
over FY 2006. Gross discretionary funding includes appropriated budget 
authority and discretionary fee collections such as funding for the 
Federal Protective Service; aviation security passenger and carrier 
fees; and premium collections. It does not include funding such as 
Coast Guard's retirement pay accounts and fees paid for immigration 
benefits. The Department's FY 2007 net discretionary budget is $30.9 
billion, an increase of 1% over FY 2006.
    Central to the Department's budget are five themes to ensure that 
all resource allocations correspond with its integral mission and 
vision. Key enhancements in the Budget for these five areas will allow 
the Department to execute the initiatives of the Administration and 
effectively secure our nation.

Increase overall preparedness, particularly for catastrophic events 
either natural or manmade and Strengthen FEMA
Preparedness addresses the Department's full range of responsibilities 
to prevent, protect against, and respond to acts of terror or other 
disasters.
    The Budget includes an increase of $294.6 million for the Targeted 
Capability Grants, for a total of $1.4 billion. This builds upon the 
$5.5 billion already in the grant pipeline to assist our states and 
localities in increasing their preparedness and furthers the 
Department's National Preparedness Goals. This funding includes an 
$80.65 million increase for Urban Area Security Initiative (UASI) to 
provide a second layer of protection for urban areas based on risk. It 
also includes a $213.9 million increase over comparable programs, for a 
total of $600 million, for the Targeted Infrastructure Protection 
Program (TIPP). This will provide states with maximum flexibility to 
target resources to protect our Nation's ports, transit facilities, 
chemical facilities, and other critical infrastructure.
    The Budget also includes $50 million dollars National Preparedness 
Integration Program (NPIP) as a new initiative in the Preparedness 
Directorate. NPIP will improve preparedness by executing Medical 
Preparedness Coordination, Catastrophic Planning, Emergency 
Communications Improvements, and Command and Control Alignment.
    This budget enhances our ability to respond to and recover from 
disasters. Indeed, last year's Gulf Coast hurricanes demonstrated the 
need to strengthen FEMA's planning and response capabilities. While 
funding was increased for these core activities in 2005 and 2006, the 
FY 2007 budget proposes a more significant investment to further 
strengthen FEMA. FEMA's budget represents a 10 percent increase over 
the 2006 fiscal year, including $44.7M to strengthen support functions. 
We will add resources to critical areas such as procurement, 
information technology, and planning and amounts.
    The Budget includes a $29 million increase and 92 FTE to support 
FEMA's Strengthen Operational Capability initiative and reinforce its 
essential support functions within its programs of Readiness, 
Mitigation, Response, Recovery, and National Security, This program 
increase will allow FEMA to fill critical positions, and upgrade 
capital infrastructure and information technology support services.
    A $5 million increase in the FEMA Procurement Staff supports the 
Department's initiative to strengthen procurement capability across the 
board. These additional 41 FTE will enhance FEMA's ability to 
effectively deliver disaster response and recovery services by 
efficiently and properly processing procurement requests during both 
routine and extraordinary operating periods.
    An additional 40 FTE and $10.7 million is requested for FEMA 
financial and acquisition management. The funding requested will build 
on the positions provided in the FY 2006 supplemental appropriation to 
operate the Gulf Region Acquisition Center to support the billions of 
dollars in contracts necessary to meet the unprecedented recovery needs 
of Hurricane Katrina and to bolster the FEMA's financial management 
capabilities to meet the demands of current and future catastrophic 
disasters.
    An additional $5.3 million is requested for National Response Plan 
(NRP) Support to help FEMA coordinate the response to all types and 
magnitudes of threats or hazards. It will allow FEMA to support 
shortened response times and provide more effective assistance during 
incidents of national significance.
    The FY 2007 Budget seeks an increase of $100 million and 40 FTE for 
the pre-disaster mitigation grant program. This program is designed to 
reduce the risk to populations, structures, and critical infrastructure 
from natural disasters. These funds will provide for the protection of: 
over 600 additional properties from flood damage through acquisition, 
elevation, relocation, and/or flood proofing; 250 additional critical 
facilities from flood damage through drainage, infrastructure, and 
utilities projects; 240 additional properties from hurricane wind 
damage; 92 additional storm shelters to save lives from tornadoes; and 
154 additional critical public facilities against seismic damage.
    Finally, an additional $5 million is proposed for upgrade of the 
Emergency Alert System (EAS). The EAS, which uses commercial radio and 
television broadcast services to send Presidential messages, provides a 
readily available and reliable means of emergency communications with 
the American people when catastrophic events occur and other national 
communications resources have been damaged or compromised. Building on 
the supplemental funding provided in FY 2006, this funding will be used 
to improve system coverage, reliability, survivability, and security by 
providing a two-way, national-level EAS satellite backbone/path that 
will effectively link all Federal, State, and U. S. Territory Emergency 
Operations Centers (EOCs).

The budget also proposes:
    <bullet> An increase of $60.5 million in funding for the Coast 
Guard's National Capital Region Air Defense (NCRAD) program. This 
funding is needed to provide an air intercept response to potential 
threats in the National Capital Region airspace, helping to protect 
Washington, DC, from airborne attack.
    <bullet> A total of $17.7 million in funding to support the 
Radiological and Nuclear Attribution and Forensics initiative. The 
request will enable the Department to combine information on potential 
capabilities of terrorist organizations to develop and deploy threat 
agents with laboratory-based forensics techniques that determine the 
source of any nuclear and radiological materials or devices.
    <bullet> An increase of $3 million for the Office of the Chief 
Medical Officer to further strengthen cutting-edge science, technology, 
and intelligence within the Department's policy-making process. This 
request, more than doubling resources for this office, will be used to 
develop policy driven initiatives to ensure that the Nation and its 
critical infrastructures are medically prepared for catastrophic 
events.
    <bullet> An increase of $10 million to establish and office to 
oversee chemical site security. DHS will classify facilities into risk-
based tiers, establish security standards for each tier, and ensure 
strong safeguards are in place to protect the public disclosure of any 
sensitive information gathered by the office.

Strengthen border security and interior enforcement and reform 
immigration processes

Securing our Borders
    One of the key elements in fulfilling the Department's mission is 
securing the border from terrorist threats and the flow of illegal 
migration. Under the Secure Border Initiative (SBI) DHS will focus on 
controlling the border, building a robust interior enforcement program, 
and establishing a Temporary Worker Program. SBI, a performance-driven, 
department-wide enterprise will make dramatic changes in the border 
security system. It will cover every facet of how we sanction, manage, 
adjudicate, and remove persons caught crossing the border; deter 
illegal migration overall; manage immigration violators currently in 
the country; and interact with States and localities at the front lines 
of immigration problems.
    Funding dedicated to SBI efforts facilitates a complete program 
encompassing many administrative, legal, and regulatory actions. 
Substantial resource enhancements provided in 2005 and 2006 will pave 
the way for an effective SBI program, and 2007 will be a turning point 
towards meeting long-term border security objectives.
    Among the key investments in the President's Budget for SBI is 
$458.9 million to increase the Border Patrol Agent workforce by 1,500 
agents, bringing the total of new agents added since 2005 to 3,000 and 
the overall total number of agents to nearly 14,000. This increases the 
size of our Border Patrol Agent workforce to 42% above the level prior 
to the September 11th attacks.
    To enhance our ability to protect the Nation's borders, the Budget 
includes $100 million for border technology to improve electronic 
surveillance and operational response. In 2006, DHS will solicit and 
award a contract to complete the transition from the current, limited-
scope technology plan to one that addresses the Department's 
comprehensive and integrated technological needs to secure our borders. 
Funding requested in the 2007 President's Budget will provide 
significant procurement investments needed to begin an aggressive 
deployment plan.
    To fund the continued construction of the San Diego Border 
Infrastructure System (BIS), we are requesting $30 million. The project 
includes multiple fences and patrol roads enabling quick enforcement 
response and will give the United States full operational control of 
the most urbanized corridor of our border with Mexico.
    The Tactical Infrastructure Western Arizona (TIWAZ) is a critical 
multi-year project that will deploy approximately 84 miles of vehicle 
barriers and improve 150 miles of access and maintenance roads. The 
Budget includes $51 million for the deployment of this tactical 
infrastructure in Arizona which will enable the construction of 39 
miles of permanent vehicle barriers.
    To support the detention and removal of at least another 100,000 
apprehended persons annually, the budget includes over $400 million for 
an additional 6,700 detention beds and associated staffing and other 
expenses. This would bring the total number of beds to 27,500 in 2007. 
A key element of SBI is replacing a ``catch and release'' protocol for 
captured aliens with a ``catch and return'' process, requiring a 
substantial expansion of bed space. In addition, new bed space will be 
used to return criminal aliens upon release from State and local 
prisons, and address the problem of alien absconders defying orders of 
removal.
    The budget also includes $41.7 million for ICE worksite 
enforcement, to add 206 agents and support staff for this effort. A 
strong worksite enforcement program that continues to expand will send 
a strong deterrence message to employers who knowingly hire illegal 
workers; reduce economic incentive for illegal immigration; and help 
restore the integrity of employment laws.
    An additional $60 million is requested for ICE Fugitive Operations 
apprehension teams, adding a total of 18 teams, to a planned level of 
70 teams nationwide. In addition to shoring up our borders and 
improving workplace oversight, the Department will continue to increase 
efforts to catch the estimated 450,000 absconders around the country--a 
level that is growing every year.
    Outside of core SBI programs, the request level includes funding 
for other vital border security programs to include:

        <bullet> An increase of $62.9 million over FY 2006 for total 
        funding of $399.5 million is requested for US-VISIT, a critical 
        element in the screening and border security system towards 
        ensuring better border security in a post-September 11th 
        environment. Included in the US-VISIT initiative is $60 million 
        in new resources to improve connection of information between 
        DHS IDENT system and DOJ IAFIS fingerprint system.
        <bullet> CSI & C-TPAT. The request continues to support the 
        Container Security Initiative (CSI) and the Customs Trade 
        Partnership Against Terrorism (C-TPAT), which are critical in 
        the prevention and deterrence of Weapons of Mass Destruction 
        (WMD) and other dangerous or illegal material importation. The 
        Budget requests $139 million for CSI to pre-screen inbound 
        cargo at over forty foreign ports and $55 million for C-TPAT to 
        review and improve the security of partner organizations 
        throughout the cargo supply-chain.

Reform and Modernization of Immigration Management
    As Congress and the Administration collaborate to reform the 
immigration system in addition to improving border security, it is 
critical that the Department is ready to effectively manage any reform 
and implement a sustainable immigration management system.
    Among other things, the Budget includes resource initiatives for 
worksite enforcement, fugitive operations, employment verification, and 
U.S. Citizenship and Immigration Services (USCIS) business 
transformation efforts.
    The request includes $135 million for the operation and expansion 
of the USCIS Systematic Verification for Entitlements (SAVE) program 
which provides immigration verification services to State Departments 
of Motor Vehicles and other Federal and State agencies, and to expand 
and enhance the current Basic Pilot program to be ready to support a 
mandatory national electronic employment authorization verification 
system. The current Basic Pilot program is a voluntary electronic 
verification program enabling an employer to confirm the employment 
eligibility of newly hired employees.
    The President's Budget seeks a total of $112 million in fee and 
discretionary resources within USCIS to accelerate comprehensive reform 
and automation of existing business processes, including the 
modernization of critically needed information technology and actions 
to sustain improvements achieved in reducing the immigration processing 
backlog.
    Finally, as USCIS transforms its business processes, redesigns its 
forms, and improves service delivery and value to its customers, the 
agency will reform its fee structure to ensure the recovery of 
operational costs in line with Federal fee guidelines. Currently, 
application fees are not optimally aligned with the cost of each 
application, and improvements must be made for the long term to more 
effectively link regular and premium fees to specific service levels. 
This effort becomes even more important as USCIS operations are 
automated, forms are reduced and simplified, and USCIS prepares to take 
on substantial new activities including a Temporary Worker Program. The 
Department will continue to assess business model options for 
implementation of the TWP as consideration of the proposal moves 
forward in the Congress.
Improve MaritiSe security and Create better transportation security 
systems to move people and cargo more securely and efficiently.
    A core objective in establishing the Department was to strengthen 
the overall security capability of the nation's transit systems and 
maritime security. Terrorist attacks on international transit and 
national maritime systems have driven the Department to implement 
rigorous security measures for the nation's systems. The 2007 
President's Budget request includes initiatives that continue to 
support the objectives of the Aviation and Transportation Security Act, 
which was enacted to strengthen the transportation system and ensure 
the freedom of movement for people and commerce, by securing America's 
transit system from terrorists, criminal threats and attack; and the 
Maritime Transportation Security Act (MTSA) of 2002, which was enacted 
to secure U.S. ports and waterways from a terrorist attack.
    A total of $4.7 billion is requested to support TSA's Aviation 
Security efforts. Of this amount, $692 million will continue support 
the deployment and maintenance of Explosive Detection and Electronic 
Trace Detection Systems which provide a higher probability to detect a 
wider range of explosives, and are critical to finding threats in 
transportation venues and eliminating their destructiveness.
    The Budget also seeks resources for the Domestic Nuclear Detection 
Office (DNDO) to support next generation technology to secure our 
transportation system. For example, a total of $30.3 million is 
requested to fund the Cargo Advanced Automated Radiography Systems 
(CAARS) Development initiative. The DNDO will execute the program 
developing advanced active-imaging radiography systems for cargo 
inspection at the Nation's ports of entry. The CAARS program will 
significantly improve throughput rates of imaging systems specifically 
designed to identify concealed nuclear materials threats. It will 
eliminate the need for operator interpretation of radiographic images, 
and reduce overall inspection time from over five minutes to 
approximately thirty seconds.
    Funding of $157 million for the Radiation Portal Monitor 
Acquisition initiative will secure next-generation passive detection 
portals for deployment at official ports-of-entry to expose attempts to 
import, assemble, or transport a nuclear explosive device, fissile 
material, or radiological material concealed within cargo or 
conveyances and intended for illicit use. Consistent with the global 
nuclear detection architecture, the deployment strategy will be 
mutually developed by the DNDO and CBP.
    For the U.S. Coast Guard, the President's FY 2007 Budget requests a 
total of $934.4 million for the Coast Guard's Integrated Deepwater 
System (IDS), which is $10.7 million above the FY 2006 funding level. 
The Deepwater funding will continue the IDS acquisition of: the fourth 
national security Cutter (High Endurance Cutter replacement); the first 
Fast Response Cutter (Patrol Boat replacement); and additional Maritime 
Patrol Aircraft (MPA). In addition, it will establish a second MPA-
equipped air station; complete the re-engineering of the HH-65 
helicopter, and significantly enhance legacy fixed and rotary wing 
aircraft capabilities. IDS Command, Control, Communications, Computers, 
Intelligence, Surveillance and Reconnaissance (C4ISR) upgrades to the 
USCG cutters, boats and aircraft will enhance maritime domain awareness 
and are critical to the achievement of an integrated, interoperable 
border and port security system.
    The President's 2007 Budget also proposes to replace the two-tiered 
aviation passenger fee with a single, flat security fee of $5.00 for a 
one-way trip with no change in the overall fee that may be charged on a 
one-way ticket. This is consistent with the screening process whereby 
you only pass through security once. The Budget also proposes to 
collect $644 million in air carrier fees ($448 million for FY 2007 plus 
$196 million owed from FYs 2005 and 2006). This is based on a General 
Accountability Office (GAO) estimate of what is reasonable.
    Finally, the Department seeks a total of $4.8 million for the Coast 
Guard's Maritime Security Response Teams (MSRT). Established to deter, 
protect against and rapidly respond to threats of maritime terrorism, 
the MSRT initiative expands upon the prototype Enhanced Maritime Safety 
and Security Team that was established by re-allocating base resources 
in FY 2006. The teams will be capable of maintaining around-the-clock 
response readiness in the event of domestic maritime terrorism 
incidents.

Enhance information sharing with our partners
    The ability to share information with state and local partners, the 
private sector, law enforcement, and first responders is critical to 
the Department's success, and promotes greater situational awareness. 
DHS is prepared to enhance and maintain interoperability for 
information sharing purposes to ensure a seamless capacity to share 
information during national emergencies and to execute its daily 
mission of detecting and preventing potential terrorist activity.
    In support of this effort the Budget includes an increase of $45.7 
million, 18.1% over FY 2006 funding, for activities of the Analysis and 
Operations Account to fund the Office of Intelligence and Analysis 
(I&A) and the Directorate of Operations. I&A leads the Department's 
intelligence and information gathering and sharing capabilities by 
ensuring that information is collected from relevant field operations 
and critical participants in the intelligence community; analyzed with 
a mission-oriented focus; and disseminated to the appropriate federal, 
state, local, and private sector partners.
    The Directorate of Operations distributes threat information 
ensuring operational coordination Department wide; coordinates incident 
management activities; uses all resources within the Department to 
translate intelligence and policy into immediate action; and provides 
oversight of the Homeland Security Operations Center, the Nation's 
nerve center for information sharing and domestic incident management 
on a 24/7/365 basis.
    To support the Infrastructure Transformation Program (ITP), the 
Budget proposes an increase of $36.3 million. This increase will 
provide a highly reliable, secure, and survivable network 
infrastructure and data center environment to improve information 
sharing, more effectively securing the homeland while reducing 
redundant investments. ITP will integrate the IT infrastructures of the 
22 legacy components of the Department into ``One Infrastructure'' 
which includes the creation of one secure network; the establishment of 
common and reliable email communication; the restructuring of helpdesks 
and related services; the reduction in number and transformation of the 
data centers; the standardization and modernization of the desktop 
workstation and site services environment; and voice, video and 
wireless infrastructure modernization.
    The Budget also includes an increase of $9 million for Data Center 
Development. The Department will continue the integration of its IT 
infrastructure ``Dual Active/Active Data Centers'' that provide a 
foundation for information sharing and agile responses to threats 
against the homeland. The Data Center Development activity plays a 
central role within the ITP, supporting the Department's strategic 
planning priority of ``Stronger Information Sharing and Infrastructure 
Protection.''

Strengthen the DHS organization to maximize mission performance
    Sound financial management of the nation's resources is critical to 
maximizing mission performance for the Department. The President's 
Budget aligns the Department's request according to a risk-based 
allocation method, channeling the nation's resources into the areas 
that will most effectively accomplish the mission of the Department. 
Successful mission performance is driven by developing human capital, 
executing efficient procurement operations, and possessing state-of-
the-art information technology resources.
    A key enhancement to the Budget includes an increase of $12.6 
million to improve financial management department-wide. This includes 
funding to improve DHS' internal controls over financial reporting, as 
required by Public Law 108-330, the Department of Homeland Security 
Financial Accountability Act; analyze opportunities for further 
functional consolidation of segments of Departmental financial 
management; support the Department's plan to achieve an unqualified 
audit opinion with no material weaknesses; produce financial data that 
is timely, reliable, and useful for decision-makers in their mission to 
properly allocate resources to protect the nation; and help protect 
against waste, fraud, and abuse.
    A total of $18 Million is requested for the eMerge2 (electronically 
Managing enterprise resources for government efficiency and 
effectiveness) program.<greek-l>Merge2 will continue to consolidate 
accounting providers and systems in the Department by matching 
components positioned to become service providers with those in need of 
new systems. eMerge2 will invest in system enhancements, integrate 
systems, and build tools to consolidate financial data, ensure 
accountability, and provide timely, reliable information for decision 
making.
    In addition, we propose an increase of $41.8 million for the Office 
of the Chief Human Capital Officer to continue implementation of the 
Human Resources System Initiative--MAX<SUP>HR</SUP>, a market and 
performance-based compensation system that rewards employees for their 
contributions to the mission of the Department, not longevity.
    The Department has identified organizational performance 
deficiencies in the current procurement process and will implement 
comprehensive modifications to prevent fraud and misuse; and ensure 
effective delivery of services and proper procurement and contracting 
procedures. For this effort, we propose an increase of $27 million 
throughout the Department to improve acquisition operations.
    Finally, the Office of Policy requests an increase of $8.1 million 
to provide funding to support DHS participation on the Committee on 
Foreign Owned Investments in the U.S. under the Policy office; expand 
duties of the International Affairs office; enhance capabilities of the 
Homeland Security Advisory Committee (HSAC) to work with private sector 
stakeholders; and increase efforts to oversee immigration and border 
security related initiatives.

                               Conclusion

    The FY 2007 budget proposal reflects this Administration's ongoing 
commitment to protecting the homeland and the American people while 
ensuring the Department has the resources we need to achieve our 
critical mission. The budget builds upon past success and 
accomplishments, reflects risk-based, outcome-driven priorities, and 
supports the key imperatives under our Second Stage Review.
    We will continue to work with Congress to ensure that our short and 
long term priorities are adequately funded--including border security, 
preparedness, strengthening FEMA, and enhancing chemical security. I 
look forward to continuing our partnership with you to ensure funding 
priorities are met so that we can continue to protect the homeland and 
the American people.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the FY 
2007 budget and other issues.

    Chairman King. Thank you, Mr. Secretary.
    I will basically ask you two questions. One is on the issue 
of first responder funding, which we are trying to get as close 
as possible to risk-and threat-based. You have increased UASI 
funding. On the other hand, there have been cuts in such grants 
as FIRE Act and SAFER. I would ask you to reconcile that, why 
you decided to put more into UASI and what impact you think 
that will have.
    The second question will be, how close are you and how much 
progress have you made toward mandatory detention and expedited 
removal along the border?
    Secretary Chertoff. Let me deal with the first question. We 
are strongly committed, as I know this committee is, to risk-
based funding. We did put more money into the UASI program, 
which is a program that we have now, I think with each 
successive iteration of grants, have gotten more disciplined 
and more precise in terms of determining what the risks are and 
focusing on the urban areas of the highest risk.
    We have also taken a regionally based approach, asking 
urban areas to be evaluated on a regional basis and to come up 
with investment justifications on a regional basis, which does 
require them to come together and decide among themselves what 
their priorities are, but make sure that we avoid unnecessary 
duplication. FIRE Act grants, the amount requested in this 
budget is less than in the prior year, but it reflects the fact 
that over the last several years, I think since 2001, we have 
put about $3 billion in to FIRE Act grants. That is to buy 
equipment, pay for training.
    Obviously, there are continuing needs for that, but as with 
any major capital investment in equipment, one does not expect 
that to be a recurrent investment every year. Once you buy, you 
know, you have 29,000 communities that have received money 
under these FIRE Act grants. Once they have bought new fire 
equipment, they will get into a mode of maintenance and 
replacement, rather than purchasing the same level each year. 
So it is appropriate to scale that back down and make sure we 
can start to put money into other types of risks.
    As far as the SAFER Act is concerned, as I think was the 
case with last year's budget, our general view is that absent 
specific circumstances where we <plus-minus><plus-minus>do 
allow grant money to be used for personnel expenses, generally 
the payment of personnel expenses for first responders is a 
state and local responsibility.
    We do make some exceptions. For example, when we go to 
level orange in alert level, but otherwise it would be frankly 
very difficult to draw the line. Every function of state and 
local government could ask that the federal government pay for 
their personnel, and that would of course dramatically change 
the budget and dramatically change the way we allocate 
responsibilities to our levels of government.
    Let me talk briefly about expedited removal. I indicated 
when I rolled out the secure border initiative that our 
objective was to achieve catch-and-return at the border by the 
end of this fiscal year. We have put into effect some very 
specific metrics to see how we are doing. The answer is we are 
on a track to success, but there are two things I want to 
highlight as potential problems.
    As we have rolled it out, along the border and in terms of 
different categories of non-Mexicans, we have come very close, 
with one exception, to having everybody that we catch who is 
not a Mexican, who comes across the border, having them caught, 
having them detained until they get removed. We have done that 
by adding beds and by shortening the removal time.
    We have hit two problems. One is that when we have family 
groups, we do not currently have detention facilities that 
allow us to house children. That is done over at HHS. It is a 
difficult situation because we obviously want to be humane to 
children, but we will nevertheless have to work with HHS to 
find a way to detain those families. What we will see is an 
increase in the number of family groups that try to sneak 
across because they think they will get released.
    The other problem is El Salvador. We have not been able to 
apply expedited removal to El Salvador because there is a court 
order that forbids us from doing it. We have gone to the court 
to get that order modified. At the same time, we have either 
submitted or are about to submit legislation to this Congress 
that would essentially address the problem and allow us to use 
expedited removal across the board. Once we surmount that 
hurdle, I believe we are on track to success.
    There is one other thing I want to highlight, though. There 
are some countries that do not cooperate with us in taking back 
their illegal migrants. Of course, if they do not take the 
migrants back, our choice is either to house them for an 
extended period of time, which consumes a lot of resources, or 
to release them. We are going to have to increase the pressure 
on some of these countries to live up to their responsibility 
to take their citizens back. I have spoken to the secretary of 
state about this. It is a high priority for us and we are going 
to continue to push on it.
    Chairman King. Thank you, Mr. Secretary.
    The gentleman from Mississippi?
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Secretary, I see in your budget request that you have 
asked for $10 million to be put in the infrastructure 
protection division for chemical plant site security. Do I now 
assume that you see that as a responsibility of DHS?
    Secretary Chertoff. We see it as a responsibility that DHS 
has to supervise this, but we think the private sector has to 
pay for the actual improvements. We are not going to pay big 
chemical companies to do their own security. We are going to 
insist, though, that we have a regime that makes sure we have 
adequate security.
    Mr. Thompson. I am not talking about fixing the problem, 
but in terms of general oversight and inspection, there is some 
conflict now as to who has that responsibility.
    Secretary Chertoff. My understanding is that as it relates 
to the issue of security against an attack, it is our 
responsibility to have in place a proper set of rules and 
supervision of chemical plants.
    Mr. Thompson. And you see this money in the budget as 
moving us close to setting up some standards for chemical plant 
security?
    Secretary Chertoff. Actually, we are already moving in that 
direction. This will allow us to continue to do it. I should 
point out, as I think you know, that we are working with 
members of Congress both here and in the Senate, on legislation 
that we would need to give us some additional regulatory 
authority to make sure that, particularly for the high risk and 
highest risk chemical plants, we can make sure the standards 
are in fact followed.
    Mr. Thompson. Well, if you are in fact doing that, I think 
we ought to somehow look at coming up with some kind of 
legislation in the not-too-distant future around chemical 
plants. Mr. Lungren has been talking about it, but now that you 
put some money in the budget, this is clearly an opportunity 
for us to give you what you see as the necessary authority to 
do your job.
    Chairman King. If the gentleman would yield, as was 
discussed with Mr. Thompson, I certainly do intend to address 
this discussion with Mr. Lungren, and the committee will 
certainly be addressing this issue.
    Mr. Thompson. Thank you.
    The other issue I want to talk about, Katrina substantially 
impacted my district, too, Mr. Secretary. Last week, the 
comptroller general testified that in disasters like Katrina, 
someone should have been designated in charge, and that 
according to his record, that was not done. Because of that, it 
caused significant loss of life and other things. I am 
wondering if those lapses that you acknowledged yesterday in 
yourself and others have been corrected.
    Secretary Chertoff. I think they have been corrected, 
although I am not going to tell you we do not have more work to 
do. One indication of correction was when I replaced Mr. Brown 
with Admiral Allen as PFO. I think that there was, while we 
certainly did not achieve perfection and there was a very 
challenging issues, I think we made a significant step forward 
in correcting the issue and making sure that we had proper 
leadership in place to coordinate across the board.
    I think we saw that again when we had Rita. As we go 
forward, because we now are entering the phase in the Gulf of 
really recovery, we have put into place a deputy director of 
FEMA for the Gulf, whose sole responsibility will be to manage 
FEMA's activities a far as they relate to Gulf reconstruction. 
The reason I did that was because FEMA has to re-load, so to 
speak, for the next hurricane season. We need to get a FEMA 
director and a FEMA deputy director who will make sure we are 
re-loading. I wanted to make sure that was a very high-level 
person at FEMA who had no other responsibility but to see 
through the process of recovery at the same time. So that 
person is in place.
    Mr. Thompson. Does this person have emergency training or 
qualifications?
    Secretary Chertoff. Yes, it is a very experienced person 
from FEMA named Gil Jamieson.
    Mr. Thompson. Thank you.
    Mr. Chairman, what I would at some point like to do is 
submit some additional questions to the secretary to answer 
along this line and a few others. I yield back.
    Chairman King. Without objection.
    The chair will now recognize other members of the committee 
for questions under the 5-minute rule. As I mentioned before, 
we are going to strictly enforce the 5-minute rule so that all 
members can get a chance to ask questions. Members are advised 
that those who were present at the start of the hearing will be 
recognized in the order of seniority on the committee. Those 
members who come in later will be recognized in the order of 
arrival.
    I recognize the gentleman from Georgia, Mr. Linder, the 
chairman of the Subcommittee on Prevention of Nuclear and 
Biological Attack. Mr. Linder?
    Mr. Linder. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. It is nice to see you again.
    It seems to me the event of the last several days should 
incline you to want to get rid of FEMA in your department. 
During the course of the actions over Katrina, there was nobody 
paying attention to terrorism because you were all down in the 
Southeast. Your department was stood up for one purpose only, 
because we were attacked by terrorists. And all of those 
actions that we put together to prevent a future attack by 
terrorists are getting sidetracked because of a problem with 
recovery.
    You have heard over the last several days people saying you 
are spending too much money on terrorism and not enough on 
recovery. That is reason, I repeat, that your department was 
stood up. It should be in your interest to separate FEMA from 
your department so you could focus on what you were set up to 
do. What do you think about that?
    Secretary Chertoff. I think the important thing for me is 
not to make my life easy, but to achieve what I think is a 
very, very important purpose of this department, which is to 
deal with all hazards. The Defense Department has a doctrine 
about the ability to fight two wars. The secretary of defense 
does not have the luxury, although there is a very time-
consuming amount of effort being spent on the war in Iraq, the 
secretary of defense still has to be able to pay attention to 
all other kinds of threats. I think that is true with the 
secretary of homeland security, too.
    I think that this department, although still immature, 
needs to be able to look at the full spectrum of security 
challenges. Let me tell you why I think it would be a huge 
mistake to get rid of FEMA. Disasters do not come labeled. We 
will not know necessarily in every instance whether we are 
dealing with a natural hazard or a manmade hazard. We could 
have a huge loss of electricity in the power grid and not know 
whether this was part of a concerted assault by terrorists or 
part of some kind of a natural problem that caused the 
disaster.
    An agency that is stovepiped can focus on things through 
the prism of natural disasters, which is what FEMA 
traditionally did. It is not going to be particularly well-
equipped, and may in fact wind up in a turf battle with an 
agency that is focused on terrorism. What I do need to do and 
what I do intend to do is to have a component head, a director 
of FEMA who is capable of executing the responsibilities of 
that job in a way that does not require constant attention and 
supervision by the secretary.
    In much the same way that we have Secret Service and Coast 
Guard and customs and border protection and the Border Patrol, 
they have very competent leadership that allow me to manage and 
set priorities, but do not require me to spend all of my time 
dealing with their issues. So I view this as an issue that we 
need to cure by completing the integration of our department 
and properly staffing and putting in place FEMA leadership, but 
not by starting to put stovepipes in that I think we have 
wisely spent some considerable effort trying to break down.
    Mr. Linder. One of your comments in your testimony was that 
you do not want to get caught fighting the last war. We tend to 
do that in this country. I do not know anyone who believes that 
passengers will allow another airliner to hit a building. They 
will take the lesson from Pennsylvania and stop that. You are 
spending one out of eight of your DHS dollars on airlines. In 
2003, we had 690 passenger trips on airlines. We had 9 zillion 
on trains. We spent $200 million on trains and $4.3 billion or 
$4.4 billion on airliners. Why are we fighting that last war?
    Secretary Chertoff. Actually, we are trying to make a very 
concerted effort not to fight the last war. Let me tell you how 
we are doing that. First of all, as it relates to airlines, we 
have hardened cockpit doors; we have air marshals; we have on-
flight deck officers. Precisely for that reason, we have begun 
to move our screeners away from looking for the types of things 
like nail scissors, which we worried about right after 9/11 
when we were concerned about a takeover, but which as you 
rightly point out, I think in light of our other security 
measures, are of less concern.
    However, intelligence shows and experience shows that there 
still is a threat of someone trying to blowup an airliner. We 
saw Richard Reed try to do that. That would cause a substantial 
loss of life. Beyond that, it would cause a huge impact on our 
air transit system and could really be a devastating blow to 
air transportation. So what we have done is we have moved our 
focus on the aviation piece towards increasingly focused and 
sophisticated explosive detection activity. We have trained 
screeners to look for component parts of detonators. We are 
continuing research into explosive detection equipment. We are 
bringing more dogs in.
    One of the things we are trying to do, by the way, is 
someone pointed out that there are long lines waiting to get 
through the screening. That is actually another vulnerability. 
We are starting to work now to push the canine teams out into 
the airport so we can start to actually expand our security 
envelope.
    I also agree we need to do a lot more on mass transit, so 
we have begun to do some additional things there. We have put 
additional money into the budget. We are continuing money for 
rail inspectors. We have increased by over $200 million the 
money that we want to have for TIP grants, which is 
specifically available for kinds of things like mass transit. 
We have begun experimenting with viper teams, which are teams 
of trained TSA personnel who would go into railroad stations 
and subways to work with dogs to detect explosives. We have 
done some additional pilots with respect to screening 
technology in trains. We have one going in Jersey City.
    I am receptive to the idea of increased video surveillance, 
which I think has proven to be a useful tool. To the extent 
that there is a desire to use some of the grant money in TIP 
for video capability, I think I would be very happy to see 
that.
    So we are in fact doing exactly what you said. We are 
migrating to take account of next generation threat, as opposed 
to the last generation threat.
    Mr. Linder. Thank you.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Massachusetts, Mr. Markey?
    Mr. Markey. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    The last time you were here, I went down the chart, Mr. 
Secretary, of six major vulnerabilities to our country. I 
thought I would review what this year's budget will do for each 
one of those areas. Just to preview it, President Bush 
continues to nickel-and-dime Homeland Security, while giving a 
blank check to fight the war in Iraq.
    Number one, on chemical plants, President Bush's is only 
putting up $10 million for chemical plant security. On nuclear 
plant security, it actually cuts nuclear plant security 
spending. I think President Bush is making a big mistake in 
allowing those nuclear plants to have reduced security. On 
public transit, there is an elimination of dedicated public 
transit funding. On LNG, liquefied natural gas, no specific LNG 
funding. President Bush is wrong on this. On HAZMAT, President 
Bush zeroes out trucking security funds. The president is 
wrong. On aviation, President Bush still believes that people 
should get on planes without screening all the cargo, which is 
placed under the feet of millions of Americans on a weekly 
basis who are flying in this country.
    My first question, Mr. Secretary, in President Bush's 
budget, President Bush zeroes out the program which is used to 
help local communities respond in the event of an attack on 
their city. That program is called metropolitan medical 
response system, and $30 million was in last year's budget. 
President Bush has zeroed out the money to help local 
communities respond in the event of that medical emergency.
    How can President Bush justify zeroing out the money for 
local communities to respond to a terrorist attack?
    Secretary Chertoff. I think in general we have done with 
respect to grants and training, we have said, look, we would 
rather consolidate these into programs that allow grants to be 
structured to the particular needs communities have in all the 
various categories, whether it be prevention, whether it be 
medical response, whether it be other kinds of response, as 
opposed to taking the approach of very specifically targeting a 
particular type of function and putting the money into that 
function.
    When we target money at particular types of functions, we 
actually essentially direct communities to find a way to use 
that money so they can tap into that funding stream, even if 
the community really is in greater need of using the money for 
something else. I think that as part of our general philosophy 
of moving to more specific risk management, we have put out a 
set of capabilities that we require people to have, that are 
appropriate to be funded. Those capabilities include things 
like medical response. Those are specific capabilities. There 
is money that is available for that, but the individual 
communities have to make their own decisions about where their 
needs are.
    Mr. Markey. Mr. Secretary, I am going to have to move on. 
All I can tell you is this was a program put on the books after 
Oklahoma City was attacked. I think President Bush has lost the 
lesson of Oklahoma City and of Katrina that people are not 
going to call the Department of Homeland Security. They are 
going to call their local police and fire and medical 
facilities. This was a very valuable program. To zero it out is 
a huge mistake.
    My next question, on intelligence. The 9/11 Commission 
found that intelligence sharing was the single greatest problem 
before 9/11. Right now, the Department of Homeland Security has 
11 separate intelligence divisions. There is no common database 
among your 10 divisions, Mr. Secretary. President Bush has yet 
to give you the money in order to coordinate all the 
intelligence.
    When will President Bush give you the money to be able to 
provide for a database which connects all of the intelligence-
gathering divisions inside of the Department of Homeland 
Security?
    Secretary Chertoff. Here, I am pleased to say that although 
as you know the actual specifics of the intelligence budget are 
classified, we have increased the amount of money for 
intelligence and for operations. We have a chief intelligence 
officer who I have now--
    Mr. Markey. When will the database be up and running?
    Secretary Chertoff. The chief intelligence officer has now 
been given the authority to manage the intelligence activities 
of all the 11 intelligence components. He is working with the 
chief information officer now to create a bridge to bring 
together and consolidate.
    Mr. Markey. When will the database be up and running that 
connects all of the intelligence agencies inside of your 
department, much less every other intelligence agency in the 
federal government?
    Secretary Chertoff. I will have Assistant Secretary Allen 
come up and be very specific about it, but we have already 
improved the connectivity between our data.
    Mr. Markey. Will you have a database completed this year, 
2006, that ensures that the American people know that President 
Bush will guarantee that there will be a database in place that 
connects all of the intelligence agencies?
    Chairman King. The time of the gentleman has expired. The 
secretary can answer the question.
    Secretary Chertoff. Here is why I am having a little 
difficulty answering. Sometimes the correct answer is not to 
consolidate in a single database, but to create a search 
capability over multiple databases. So I do not want to tell 
you here that we have agreed upon a specific architecture.
    I do agree, though, on the goal. The goal is to have the 
ability to check each of our databases in real time in order to 
see what the information is. One of the reasons you do not 
necessarily want to meld them is there are large elements of 
databases, for example in Coast Guard intelligence, that are 
really of no interest or use to us in terms of terrorism, so 
that you might not necessarily want to actually integrate all 
the databases together.
    I agree with you on the desired end-state. The specific 
architecture, though, I think may need to be a little bit more 
refined than that.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Nevada?
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you for being here today.
    The people of Nevada have some serious questions that they 
need you to answer. Let me begin by saying I was interested in 
the comments you made about how you are determining the use of 
your homeland security funding which requires you to do risk-
based funding, also focusing on urban areas of the highest 
risk.
    The city of Las Vegas in the state of Nevada is our number 
one city. It is the fastest growing city in the nation. It has 
the fifth largest, most busiest airport in the country. It is 
in the top six cities of risk determination according to law 
enforcement across the country, including law enforcement under 
your jurisdiction. It has about 40 million visitors per year. 
It has 18 of the 20 largest hotels in the world.
    Yet with all of this, with it being in the top six of the 
risk category, your department dropped it off the list of 
allowing for distribution of urban area security initiative 
grants. They deserve to have a specific answer as to why your 
department dropped Las Vegas off that list.
    I am also asking you here to assure me that you will meet 
personally with myself, Sheriff Bill Young from Clark County, 
to explain to us in detail why this determination was made. I 
would be interested in your initial thoughts.

              Prepared Statement of Hon. James A. Gibbons

    Chairman King, Ranking Member Thompson, members of the Committee 
for Homeland Security. . .Secretary Chertoff, thank you for testifying 
today and I look forward to your comments on your department's budget.
    Mr. Secretary, I am pleased with some aspects of the budget and the 
increases your department seeks in a variety of areas. I am especially 
pleased with increases in programs under the purview of the Office of 
Grants and Training. I think the increases in the Targeted 
Infrastructure Protection Grants of $213 million and the Urban Area 
Security Initiative (UASI) increase of $98 million demonstrate your 
department's understanding of how critical federal funding is to state 
and local government's ability to properly safeguard their 
infrastructure and more importantly, their citizens.
    Mr. Secretary, despite these raises in grant funding your 
department recommended, I am astonished that Las Vegas was not one of 
those cities designated to receive funds under the UASI grant program. 
I cannot find a logical explanation for this and I must say that the 
response by your staff to our inquiries isn't helping me either. We 
were told that your risk formula used 3.2 billion calculations to 
determine your list of high risk cities that determine who gets UASI 
funding. I find it hard to believe that any legitimate formula for 
determining risk could leave Las Vegas off such a list.
    I spoke with Sheriff Bill Young of the Las Vegas Metropolitan 
Police Department and he said that your own Homeland Security 
Operations Center told him that Las Vegas was in the top six cities of 
concern based upon the consensus opinion of law enforcement officials. 
They additionally asked for a Metro officer to be stationed at the HSOC 
to assist them and Sheriff Young has honored that request and has had 
an officer there for the past year and a half. In fact, that officer is 
still there. Does that sound like a city that should not make the list 
of high risk areas under your current risk formula? And why is there a 
disconnect at your management level where you say Las Vegas is not a 
high risk city deserving of funding and your experts on the ground in 
your HSOC and in the law enforcement community say Las Vegas is one of 
their top six cities of concern.
    Las Vegas is the fastest growing city in the country. The 2000 
census puts the Clark County Population at just under 1.4 million and 
with Nevada's tremendous population boom, estimates are that number 
could be as high as 1.8 million now. Additionally, 18 of the world's 20 
busiest hotels are in Las Vegas and they are almost always full. 
McCarran International Airport is the 5th busiest airport in North 
America as far as passengers are concerned and the 5th busiest in the 
world as far as take offs and landings are concerned. This doesn't even 
take into account the 38.2 million tourists that visit it each year. 
Mr. Secretary, that doesn's sound to me like a place that needs to be 
removed from your high risk list.
    Additionally, just 35 miles from Las Vegas is what I would consider 
a major piece of this country's infrastructure in Hoover Dam. I want to 
remind you that Hoover Dam connects Nevada and Arizona, provides power 
to 3 states, and creates the Lake Mead Recreational Area that draws 7-8 
million visitors a year. To me, those are some pretty attractive traits 
for a potential terrorist group. And an attack on Hoover Dam would be 
devastating to Las Vegas, as well as our neighboring communities.
    Mr. Secretary, beyond all those impressive statistics, my question 
to you and those who developed this formula, is how can you quantify 
what Las Vegas represents to those terrorists who would attack our 
country as a focal point for all they despise about America? How do you 
quantify that the 9/11 terrorists stayed in Las Vegas before the 
attacks and made surveillance tapes of various resident and trouist 
locations? I don't think many cities in the country can say the same 
thing. Every piece of intelligence I have seen and that state and local 
officials have seen supports the same conclusion--Las Vegas is a key 
target for terrorist groups who hate America. Which one of the 3.2 
billion calculations took that into account? We sent a man to the moon 
with less calculations than that and we can't even get Las Vegas on the 
high risk list?
    Mr. Secretary, I repeat to you that the answers from your staff on 
why Las Vegas was not on the high risk assessment list have been 
completely inadequate. We were told that the specific calculations for 
your formula were classified. I would submit to you that I can think of 
no piece of information, classified or otherwise that could logically 
say that Las Vegas shouldn't be on a list of high risk cities. Your 
staff has stated that Hoover Dam was not even included in your 
calculations because it was outside your arbitrarily drawn 10 mile 
limit of consideration. Can you say now that an attack on Hoover Dam 
would have no effect on Las Vegas or that it is not worthy of 
conisderation by Las Vegas and Clark County Officials?
    Mr. Secretary, the people of Nevada deserve a better and more 
detailed answer to these questions. During my question period, I will 
ask you specifically for a meeting with you, me, and Sheriff Young. I 
ask that you meet that request as soon as possible and give us the 
answers we deserve. Thank you.

    Secretary Chertoff. I will give you an answer, a general 
answer, partly because I do not have all the specifics in my 
head right now, and partly because some of the specifics are 
things which should not be revealed in public. We have very 
experienced career officials look at literally thousands and 
thousands of characteristics.
    It is not just a matter of population, as you know. It is a 
matter of, first of all, the degree of threat we have, based on 
our intelligence stream. It is based upon consequence measured 
not simply by population, but by critical infrastructure and 
the interdependencies on other communities. It is also a 
function of vulnerability, to what extent a community has 
itself taken steps that are sufficient to reduce its 
vulnerability, as opposed to communities that really are very 
much exposed.
    I know that creates a kind of ironic situation where a well 
prepared community does not get money and a poorly prepared 
community does get money, but this is not really about 
punishing and rewarding. It is about raising the general level 
of security.
    I also have to emphasize that there are other grant 
programs that sometimes apply. For example, in some cities they 
may not be on the UASI list, but they may get a robust amount 
of money for ports that covers a particular need. In the case 
of Las Vegas, I can tell you that, for example, new year's, 
which we know is a big day for Las Vegas, we did a special 
national security operation in cooperation with state and 
locals, to surge our security for that period of time in Las 
Vegas.
    So there are a number of things we do. This is not the only 
program. I will be happy to meet with you and have others 
explain to a certain degree how those decisions are made. We 
did keep Las Vegas in this year because we agreed we were going 
to have, anybody who was on the list last year would be able to 
carry over. I am open to next year to reconsidering, based on 
new facts, new threat information or better arguments. This is 
an evolving process, and the circumstances will sometimes 
change.
    I think that we have agreed to give a classified briefing 
to the delegation that would explain with a little more 
specificity the basis of the judgments in a way that I cannot 
talk about publicly.
    Mr. Gibbons. It would seem ironic that the city listed in 
the top six cities in the nation for risk. We know that on 9/
11, the 9/11 crew visited, stayed, reviewed Las Vegas and 
looked at and determined whether or not Las Vegas would be a 
target. That information is out there in the public already.
    But a city that is in the top six list of cities in this 
country that are at risk, to be dropped off the UASI list for 
distribution of grants is terribly disturbing to a lot of 
people. It is disturbing to the 2.4 million people in the state 
of Nevada, but it ought to be more disturbing to the 40 million 
people who come to Nevada to visit. Those are specific answers.
    We have a lot of concerns with this determination and would 
certainly hope that we can set up this meeting with you and 
Sheriff Bill Young to get specific reasons why Las Vegas, even 
under the criteria you have just described, did not meet that 
grant specialty. Hoover Dam, which is an area right next to the 
city of Las Vegas, is certainly a critical target. It provides 
power to three states.
    Chairman King. The time of the gentleman has expired.
    Mr. Gibbons. Thank you, Mr. Chairman.
    I look forward to setting up that meeting with you, Mr. 
Secretary.
    Chairman King. The gentleman from Washington state, Mr. 
Dicks?
    Mr. Dicks. Mr. Secretary, the other day I was watching CNN 
and I picked up this article. About 450 miles north of the 
hurricane-battered Gulf Coast, 11,000 mobile homes meant as 
temporary housing for storm victims are sinking into the 
Arkansas mud. The mobile homes have been parked for months 
outside of Hope, as the Federal Emergency Management Agency 
grapples with what to do for thousands of people left homeless 
by Hurricane Katrina. But FEMA regulations prevent them from 
being placed in a flood plain, a rule that rules out much of 
low-lying Louisiana and Mississippi, where Katrina struck on 
August 29.
    ``I think we have been surprised at the number of obstacles 
in placing manufactured housing,'' FEMA spokesman David Passey 
told CNN. FEMA already has spent more than $300 million on the 
trailers, but now the agency will have to spend more money to 
jack them up. A Department of Homeland Security report revealed 
this week that the mobile homes have deteriorated so badly they 
eventually might have to be destroyed.
    This is ridiculous. What is being done? These 11,000 homes 
are down there. Here we have all these people who are homeless. 
We have the 11,000 homes. Now we are getting jacks to jack them 
up. Is this the best we can do, Mr. Secretary?
    Secretary Chertoff. I have seen this report.
    Mr. Dicks. Has anybody been down to check this out?
    Secretary Chertoff. Yes, people have been down to check it 
out. I have not seen this myself. I am informed that in fact 
the IG's visit may have taken place after a big rain. Most of 
the mobile homes are on runways and a physical situation where 
they are not going to be deteriorated.
    Mr. Dicks. Is there any plan to take them to the people who 
need them?
    Secretary Chertoff. Yes. Let me explain exactly what is 
going on.
    First, we have to distinguish between trailers and mobile 
homes. We have put tens of thousands of trailers into 
Mississippi and Louisiana. We are continuing to put more down 
there. Mobile homes, there is a regulation, and we could change 
the regulation, frankly, so I am not going to argue based on 
the regulation. I am going to argue based on common sense. 
Mobile homes which are fixed, there is a regulation that 
prevents putting them in a flood plain. It is perfectly obvious 
why.
    Mr. Dicks. Why did we buy them, then, if you could not put 
them in the flood plain?
    Secretary Chertoff. The original concept was, at a time 
when we knew there were 770,000 displaced people, to get our 
hands on as many resources for temporary housing as possible. 
We did everything from trailers, mobile homes, trying to get 
apartments. The whole menu of things, given the fact that we 
were well beyond the capacity of the industry in the month or 
two after Katrina to even come close to hitting what the demand 
would be.
    I think the original thought was that there would be 
communities outside the flood plain that we could make 
arrangements with to set up mobile home communities.
    Mr. Dicks. Do you know how many people have we put into 
these mobile homes? How many of them have actually been 
utilized that we bought?
    Secretary Chertoff. I think that we have several thousand 
mobile homes that are occupied. I think we anticipate that of 
the approximately 18,000 to 20,000 which have been purchased, 
we will ultimately use about 9,000 in connection with Hurricane 
Katrina evacuees.
    We will take the other 9,000 or 10,000 and use them for 
other things this coming year. For example, we have used some 
with respect to the fires out in Oklahoma to rebuild houses 
there. They are well-suited for building in the interior. The 
need with respect to people in an area, though, where there is 
a flood plain are for trailers which can then be moved before 
the next hurricane comes up.
    So I am not going to tell you, I mean, in the extraordinary 
push to meet an unprecedented demand after Katrina, people just 
turned the spigot on to get whatever housing was available.
    Mr. Dicks. I have to move on here, Mr. Secretary. I only 
have 1 minute left.
    What about all these people that are being told that they 
will no longer be housed in hotels? What happens to them? Where 
do they go?
    Secretary Chertoff. Here is the understanding, and I am 
glad to have the opportunity to clear it up. No one is going to 
have their funding for a hotel cut off unless they have 
received a check covering 3 months rent from FEMA for 
individual assistance, assuming they are eligible. There are 
people in hotels who are not eligible who are not going to be 
receiving any money. But assuming people are eligible and they 
have all been given an ample opportunity to register, they will 
get individual assistance.
    The challenge is going to be, particularly in Louisiana, to 
actually find available housing for them. We are looking for a 
mix of trailers, rehabilitating apartments, and also for some 
people who are willing to move, there are available housing 
options outside of Louisiana. We are faced with the fact that 
there just are not that many apartments in Louisiana. The 
market has completely been tapped out. But we are working 
literally individually in order to make sure that people are 
not left without a place to live, but we are trying to 
transition out of expensive hotels into something that is a 
little bit more sustainable.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Alabama, the chairman of the Management, 
Integration and Oversight Subcommittee, Mr. Rogers?
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary, I hope that your office informed you that I 
was planning to talk to you about Border Patrol training costs 
because I did want to address that topic and did not want you 
to be blindsided. Hopefully, you have some information about 
it.
    I am pleased to see in the budget that you are here to 
defend that you put such a great weight in this subject area. 
Defending our borders is a top priority as far as I am 
concerned. But I want to talk about a hearing that we had in my 
subcommittee last May in which we addressed CBP's proposed 
training costs for Border Patrol agents. In that hearing, that 
department had indicated that it take $179,000 to train a 
Border Patrol agent through a 5-month program. That did not 
include the tuition to FLETC for that program, so it really was 
closer to $188,000.
    Prior to that hearing, I had my staff call Harvard 
University and ask them how much it would cost to put a student 
through Harvard for 4 years. We found that full tuition and 
room and board for 4 years at Harvard was less than $160,000.
    So my initial question to the CBP and that panel was, do 
you believe it costs more to put a Border Patrol agent 
candidate through a 5-month training program than it does to 
send someone to live on campus at Harvard for 4 years and earn 
a baccalaureate degree? With a straight face, his answer was, 
yes, sir.
    This year, your number is $187,000. I am curious if that 
includes FLETC tuition. But then my question to you is, do you 
believe it costs more to train a Border Patrol agent in a 5-
month training program than it does to send somebody to 4 years 
at Harvard?
    Secretary Chertoff. It does not. I am of course thinking 
about what my parents must have paid when I went to college. It 
does not. I think I spoke to Chief Aguilar about this 
yesterday. It came up in a discussion. He tells me that the 
number $180,000 or $190,000 is not just training. It reflects 
the full package for deploying a Border Patrol agent, including 
training obviously, but also a vehicle, weaponry, body armor 
and other things that are part of the total package. He says 
the actual cost of the training alone is about $25,000 if you 
stripped out the other things.
    So I cannot tell you as I sit here whether there would be a 
way to make it cheaper to train. Obviously, we are training at 
our own facility in Artesia, but what he informed is that the 
number includes the whole equipment package, including the 
vehicle, which is obviously expensive, and weapons and body 
armor and things of that sort.
    Mr. Rogers. And even at that, the fact that you got a 
$25,000 figure out of anybody amazes me because we have tried 
repeatedly through numerous questions and letters to get your 
department to tell us how they arrived at that $179,000 or 
$188,000 figure. This is the first time I have heard that 
number.
    Even at that, you are assuming, let's just take the round 
number of $180,000, if the Border Patrol agent starts at 
$40,000 a year, which is about what the starting pay is, and 
you are only going to pay him for 5 months, that is less than 
$20,000. If you buy him a new car, that is $30,000. If you buy 
him a new gun and body armor, how do you get to $180,000? It is 
not a number that is realistic.
    Secretary Chertoff. You probably have pushed now to the 
limit of what I have in my head. It is a fair question. I will 
make sure somebody gets back to you on that. I would like to 
know myself what the cause is. The vehicle is obviously 
expensive, and then I think they also put in the gas and there 
are all kinds of associated expenses for deploying somebody. 
But I do not want to guess about it. I will get back to you on 
that.
    Mr. Rogers. Let me say this. I hear what you are saying, 
and I know you believe that, but I am telling you people are 
giving you bogus numbers. In your proposal, you talked a few 
minutes ago in your opening statement about how you were asking 
for $458 million to train 1,500 new Border Patrol agents. That 
calculates to $305,000 per agent. Now, that number, I had my 
staff go back and check, and it does include the equipment and 
things that you are talking about. So if that is segregated out 
in that $458 million, we know the $180,000 really is for 
supposedly training.
    Here is my concern about this. First of all, I am amazed 
that nobody can defend it. I have asked them to just build it 
for me, start with the first dollar and build it up to that 
number. I am a reasonable guy. If it gets close, I will buy it. 
But we have authorized 10,000 new Border Patrol agents a couple 
of years ago. To date, we have not come close to appropriating 
the money it takes to train the 2,000 a year that the president 
wants trained.
    This is hampering our national security, to have these 
outrageously high numbers tendered to us and expecting us to 
deliver that money when we know full well it is not costing 
that much. If in fact it only costs $30,000 or $40,000 or 
$50,000 or $60,000, we need to find that out, and you will find 
this Congress ready to go ahead and fund the full 10,000 right 
away to get them on the border and make us more safe and 
secure.
    Chairman King. The time of the gentleman has expired.
    Secretary Chertoff. We will get back to you. That is a very 
fair question. I have kind of hit the limit of what I was told. 
I will furnish that to you. I will look at it myself and get a 
breakdown to you.
    Mr. Rogers. Thank you very much.
    Chairman King. The gentleman from Oregon, Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Secretary, has your department ever gone out and 
comprehensively pulled or solicited the opinion of our nation's 
first responders in terms of what their priorities are?
    Secretary Chertoff. We are constantly, we even have a poll, 
we are constantly talking to first responders. I do it myself.
    Mr. DeFazio. Okay, good. What do you hear? I hear one thing 
from all of them, and I am just kind of curious if it is the 
same thing you are hearing. I hear interoperable 
communications.
    Secretary Chertoff. Yes, there is no question.
    Mr. DeFazio. Okay. If I could, Mr. Secretary, because we do 
not have a lot of time, so let's pursue this for a moment.
    We learned that lesson in the collapse of the towers. We 
lost a lot of first responders because they could not 
communicate. Katrina, there were no communications. We have not 
come very far. In 2005, there was $93 million nationally for 
interoperable communications. That is somewhere around 15 
percent of what it would cost my state, a very low-population 
state, but geographically challenged, to do that. The next 
year, we are down to $10 million. And now you are recommending 
zero.
    I wonder if you are hearing that it is interoperable 
communications. I am hearing it is interoperable 
communications. Why isn't your budget putting a priority on 
helping and partnering with local first responders and 
jurisdictions to acquire interoperable communications?
    Secretary Chertoff. There are two dimensions to the 
problem. First of all, it is true, I think we have given $1 
billion in grants to interoperability previously. Right now, 
again, our approach has been to put more money into things like 
UASI and give communities an opportunity, we have a list of 
capabilities, interoperable communications is one of the 
capabilities, let communities come up with grant requests on 
these capabilities and then make their own decisions about 
where their most urgent needs are.
    A second part of this is we have some additional work to 
do. Through our RapidCom program, we deployed interoperable 
command-level communication capabilities in 10 cities. We now 
have to take that to the next level with SAFECOM. That means we 
have to resolve the issue of the band width that is going to be 
made available. That has to be done.
    Mr. DeFazio. Other members of this committee have 
vigorously pursued that, and we are trying. Okay, thank you. I 
still feel, and particularly in my state, which is not wealthy 
and is economically distressed, and I think many other states 
who are also low on the priority list in a lot of ways, that we 
would be well-served for natural and unnatural disasters to 
have the whole country linked up with interoperable 
communications.
    Let me ask, and this may be outside your area, but is the 
flu pandemic, I mean, we did biosecurity, so does flu pandemic 
fall at all under your concerns or aegis?
    Secretary Chertoff. I share that with HHS.
    Mr. DeFazio. Okay. So who would then be the one to put a 
higher priority on purchasing antivirals and ventilators? What 
I found, I did an exercise down at the War College last week. 
We have 10,000 ventilators. We will be triaging and rationing 
and guarding ventilators because there will be such 
unbelievably short supply and that is the one life-sustaining 
thing we can provide to people. So people will be dying and we 
will be saying, sorry, you go over there and die, there are 
only 10,000 ventilators in America and this one in this heavily 
guarded area is only for these people.
    Why aren't we buying those at $30,000 each? Whose job or 
whose responsibility should it be to help do that? Or are we 
going to wait for the private sector and/or hospitals to go out 
and buy ventilators that they do not need on a daily basis, but 
they are going to need for a pandemic?
    Secretary Chertoff. I do not have the number in my head. I 
think there is a very, very significant amount of money, in the 
billions, which Congress has appropriated.
    Mr. DeFazio. For biosecurity.
    Secretary Chertoff. Right, under HHS, to ramp up on a whole 
spectrum of things for preparedness for avian flu. To the 
extent we are going to be stockpiling medical equipment or 
pharmaceuticals, those stockpiles will be within HHS's purview.
    Mr. DeFazio. Okay, so that is who we should go to, then. 
The ventilator thing has just recently, particularly as a 
result of participating in this exercise, become a very high 
concern to me and it does not seem to me like anybody is doing 
it.
    And then aviation security, as I understand the budget, 
part of the increase in Homeland Security this year, or the 
whole increase, is based on essentially a doubling of airline 
security ticket taxes. Is there an assumption that will be done 
and that is where the money is going to come from?
    Secretary Chertoff. Not a doubling. What we are doing is 
right now I think it is $2.50 per leg, with a maximum of $5 
one-way. That discriminates against people who do not live in 
cities which are hub cities. We are going to equalize that. 
That will, however, yield an increase in revenue.
    Mr. DeFazio. Well, let me tell you. I sat on the Aviation 
Committee for 20 years and you are going to set off an 
extraordinary fight between short-haul carriers, long-haul 
carriers, and of course this is the party and the 
administration that says no new taxes, and this sounds and 
smells a lot like a tax to me. So to assume we are going to be 
funding our budget with an increase in a tax on a bankrupt 
industry is I think kind of a reach.
    Secretary Chertoff. If I could respond to that just for 
second. It is not a tax on the industry. When Congress 
authorized TSA, it was envisioned that the passengers would do 
this.
    Mr. DeFazio. Talk to the industry. They disagree.
    Secretary Chertoff. I know they disagree. I do not think I 
am Don Quixote here. I think it is fair to ask whether people 
are willing to pay the price of a soda and a newspaper at the 
airport to get themselves the ability to get on an airplane 
without being worried about getting blown up. I think people 
would be.
    Chairman King. The chairman of the Emergency Preparedness, 
Science, and Technology Subcommittee, Mr. Reichert?
    Mr. Reichert. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I know yesterday you were up here 
most of the day and today you are pulling a second day of full 
duty, so I appreciate your time here.
    There has been a lot of talk today and over the last 
several months about the lack of funding going to our first 
responders and our grant programs. Actually, the administration 
and Congress have made an enormous investment, $35 billion to 
state and local governments in grants. Unfortunately, states 
and local governments have not spent the bulk of this funding. 
For fiscal year 2002 and through 2005, $5.1 billion out of $9.1 
billion have been spent. Coupled with the president's budget 
for 2007, this means that roughly $6.7 billion in funds would 
be available to meet first responders' needs over the next 2 
years. I think that is a great start.
    I have two questions that are associated really with maybe 
how this money is used. First, I would like to go back and just 
reinforce the idea of interoperability. It has been a huge 
issue for many, many years. Back when I started as a police 
officer on the street in 1972, we were not really operable. We 
could not talk to each other then. So in 35 years or so, we 
have not gotten anything done. I do not believe that the answer 
is always money. In this case as far as interoperability goes, 
leadership, management, setting standards, federal government 
standards, performance measures, technology, and maybe, yes, 
the band width, but technology really and leadership are the 
things that are needed here.
    My question to you on interoperability is, there are 
actually two parts. When will be fully staff the office of 
interoperability and compatibility? And will you make 
interoperability within DHS the highest priority? Because 
without interoperability, we cannot plan and we really cannot 
train.
    Secretary Chertoff. First of all, let me say I completely 
agree with your comments about the money that is in the 
pipeline. I think that is important to recognize. There is a 
lot out there that is going to be spent to further increase the 
level of performance across the spectrum.
    With respect to interoperability, I also agree with you 
that there is an element of this which is cultural. We have, 
frankly, published protocols that talk about how communities, 
not only different groups of responders within a single 
community, but regional communities need to come to an 
agreement on a common set of protocols. If people do not agree 
on the language they are going to use, no amount of equipment 
is doing to deal with that.
    The second piece is we are still I think a little bit too 
inclined to play around with the technology. You put your 
finger on a real source of frustration for me. I feel we need 
to kind of fish or cut bait on this. Pick the technology and 
force the protocols to be agreed upon. Frankly, punish in terms 
of granting money if those protocols are not agreed upon.
    So I have kind of identified this as a personal project to 
get done this year, at least substantially done this year, 
because I think we have talked about this ad nauseum. I know 
the technology is there to do the bridging. It does not have to 
be I believe at the officer-to-officer level, but it has to be 
at the command level. We know we can do it because we did it in 
RapidCom. We have to fish or cut bait, stop debating it and 
endlessly discussing it.
    Mr. Reichert. We have held our first hearing this week on 
interoperability, and we are going to continue to hold 
additional hearings on interoperability. I am committed to 
getting this done in my subcommittee and I know the chairman is 
also committed to getting this done through this committee. We 
want to work with you to make that happen. Let's get it done.
    Secretary Chertoff. I agree with you.
    Mr. Reichert. The second issue is the development of 
special teams within DHS. The first is a team, you want to 
create, actually $60 million to support 18 new fugitive 
operations teams in ICE. It would increase the total to 70. You 
are also talking about, I know I met with the director of TSA, 
and they are talking about a Viper team.
    My concern in building out and spending additional monies 
on special federal teams that will go out and really, from my 
experience as the sheriff in Seattle, duplicate efforts of 
local law enforcement agencies, is a waste of money. When in 
fact what we should be doing, and we have said, the federal 
government has said to me as a sheriff, and I have said now as 
a member of Congress, to local agencies, we are from the 
federal government and we are here to help. We get tired of 
hearing that.
    We need to support the local agencies with funding to make 
their teams as strong as they can be, and not build out a 
federal police force in every one of these agencies that are 
under DHS.
    Chairman King. The time of the gentleman has expired.
    Secretary Chertoff. I agree we should not duplicate local 
government. The teams we are talking about are focused on 
things that I think are particularly federal responsibilities. 
I have heard just endlessly from local law enforcement people 
that they do not want to be enforcing federal immigration laws. 
The ICE fugitive teams are specifically designed to deal with 
fugitive absconders who violate the bail from immigration 
judges and get into the community. So I think that is our 
responsibility. We have to do it.
    I think the Viper teams as well reflect, and I have 
specifically said and probably gotten some stones thrown at me 
for saying we do not want to provide the police force for the 
metropolitan subway systems, but we do know there are times 
that there is a need for surge capacity.
    We have been welcomed to the extent we are able to deploy 
teams of trained agents and dogs particularly, when there is an 
additional threat, or we have some high-threat type of event 
going on. That flexibility, I have been told, has been welcomed 
by local officials.
    Chairman King. The gentlelady from the Virgin Islands, Ms. 
Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    Before I ask a question specifically about the budget, I 
wanted to ask about some regulations. Regulations put into 
effect by the department often have unintended consequences, 
perhaps to some extent because you are exempt from certain 
regulatory safeguards like the Regulatory Flexibility Act. I 
wanted to ask about the APIS regulations. I want to know if you 
think that the advance passenger information system was meant 
to apply to charter boats that people rent for a couple of 
hours or a day to go between the U.S. Virgin Islands and the 
British Virgin Islands.
    These are all American citizens, all having to clear when 
they get back to the USVI, and unlike any other place, they 
still have to go through clearance again before they can return 
home, especially when ferries are exempt. If you do not feel 
that it should apply to these small boats, are you willing to 
issue some kind of clarifying memorandum to that effect?
    Secretary Chertoff. I have to say that is maybe a little 
more specific than I am prepared to answer. I am certainly 
prepared to look at this question. I do not know right now 
exactly where the line is drawn. My general experience is 
sometimes there are unintended consequences and I think we are 
always ready to look if there is something that does not make 
sense, to make a modification.
    Mrs. Christensen. Okay. Some of your staff was down there, 
and were able to meet with some of the charter boat industry, 
and we thank you for that.
    I am interested in knowing why there is the budget shift of 
funding away from R&D to management and administration. Is it 
the department's position that R&D, there is less requirement 
for research and development? And also, how do you justify the 
reduction in the university programs, including the Centers of 
Excellence?
    Secretary Chertoff. I think in terms of R&D, I would say 
there are not really reductions. There are two areas where you 
see a significant change. One is money that was simply shifted 
from S&T into the DNDO, the Domestic Nuclear Detection Office. 
We made a decision, which I announced about a year ago, to 
centralize all of our domestic nuclear detection R&D and 
operational deployment into a special office which would also 
have other departments participating. So it is not that there 
is a drop in funding. We have simply shifted from one account 
to another.
    The other significant change I think is the Counter MANPADS 
research project, which was a 3-year project designed to test 
where the technology is. I think the cycle fore that project is 
about for those pilots is about to come to a close this fiscal 
year. We need to evaluate the consequence of that and then make 
decisions about where we go from here. So until we know whether 
this approach is a good approach or not, I think that that is 
something we just are not prepared to promise money for.
    Finally, with respect to the consolidation into management 
and administration, that was an accounting change. We used to 
hold salaries in the individual R&D lines. We have now taken 
the salaries out and we have consolidated them into management 
and administration, but it is the same number of people. It is 
just that we are budgeting it as a separate item.
    Mrs. Christensen. So that 10 percent is really not taken 
away from R&D?
    Secretary Chertoff. Right. It is moving it around.
    Mrs. Christensen. It is put into a different category.
    I am still not satisfied with FEMA, Mr. Secretary. You and 
I spoke earlier when other members had to go out to vote about 
your proposed restructuring. I still feel that FEMA ought to be 
the emergency preparedness directorate because that is what 
FEMA always was. The person heading FEMA should be the 
undersecretary.
    Today, the ranking member is going to introduce a bill that 
comes pretty close to that, that requires that FEMA be led by a 
director, statutorily required to possess experience, that 
recognizes that the organizational structure has to reflect the 
connection between the FEMA director and the president. It 
reunifies FEMA with the preparedness directorate.
    Will you support that legislation? If not, why not? Did I 
understand you to say that you did not think that preparedness 
was part of FEMA's responsibility?
    Secretary Chertoff. No. I am happy to talk about this and 
ask the chairman's indulgence because it may take more than 1 
or 2 minutes to answer this question.
    I think preparedness, it is very important to integrate 
FEMA's response activities into preparedness, but I think that 
preparedness is more than just response. Preparedness also 
involves protection, which is what we do under our 
infrastructure protection component, and it also involves 
prevention, which involves things like intelligence sharing, 
money for Fusion Centers in the states, money for law 
enforcement.
    When I looked at the department when I came in last year, I 
became concerned about the fact that we had split our 
preparedness. There were people in FEMA preparedness 
directorate who were focusing on preparedness in terms of 
FEMA's mission response, and then there were people who were 
focusing on preparedness in terms of law enforcement things, 
which the police and the sheriffs want, and then there was yet 
a separate group that was looking at preparedness in terms of 
infrastructure protection.
    No one had ownership of the obligation to look at threats 
across the board, and ask from a standpoint of everything, 
prevention, protection and response, have we synchronized our 
preparedness? We had stovepipes in preparedness in much the 
same way that we had in the intelligence community.
    The second thing I observed was, the fact of the matter is 
that to the extent that FEMA focused on preparedness and 
response, they were focusing on traditional threats. There was 
not I would not say zero work, but close to zero work done on 
things like biological threats, radiological threats, things of 
that sort. I thought it was dangerous to have an agency that 
was always in a battle rhythm with natural disasters, where of 
necessity the leader is always fighting fires, literally and 
figuratively, having that person also have the responsibility 
for a different kind of component, which is long-term planning.
    When we wrestled with this, and I spent more time on this 
than on anything else I did personally during our review, we 
talked to members of the military who told us that over decades 
the military migrated to a system of having separate components 
for planning and operations and intelligence, precisely to 
avoid that mixed rhythm.
    I got a wide variety of views pro and con from people in 
the states and locals. I became convinced that we needed to 
align. We needed to have someone who had the ownership and the 
responsibility for preparedness, recognizing that that person 
would have to actually develop their planning in conjunction 
with FEMA, Coast Guard, Secret Service, all of our components 
that bring particular skills to the total spectrum.
    So that was I think where we need to go. I will tell you 
that there is one change that I do support, which is we clearly 
need to have a better synchronization of preparedness with the 
FEMA regions because when you have an event, you want to make 
sure your preparedness people and your FEMA people are fully 
aware of what the strengths and the weaknesses of the region 
are.
    So we are looking, I cannot tell you exactly how we are 
going to do it, but we are going to have some regional presence 
for preparedness linked up with our FEMA regional presence, and 
linked up with DOD planners, because NORTHCOM is going to send 
us some planners. So that in each of the regions that we 
currently have, we will have preparedness and FEMA and the 
military linked up, doing the kind of very specific planning 
that I think we need in case we have emergencies.
    Chairman King. The time of the secretary has expired.
    The gentleman from California, Mr. Lungren?
    Mr. Lungren. Thank you, Mr. Chairman.
    Mr. Secretary, can you hear me?
    Secretary Chertoff. Yes.
    Mr. Lungren. Okay. I was just wondering. When the gentleman 
from Massachusetts was here, I was not sure whether he thought 
you could hear him, or he could hear himself, or whether I 
could hear him. I just want to report to him the speaking 
system works very, very well.
    I was wondering why I enjoyed this moment so much, and then 
I realized I used to be an attorney, and I used to appear 
before federal judges. Often I thought, boy, I wish I could 
have them answer my questions instead of the other way around.
    I think what the ranking member said is important. We have 
gotten our sea legs here after a year in this committee. You 
have gotten your sea legs after a year over there. There ought 
to be a better relationship between the two of us. I mean, this 
committee and your organization. I hope that you will make good 
on your suggestion in response to the ranking member's 
suggestion that we need to have a better relationship and 
opportunity to speak with you personally on an informal basis 
to go over some of these things because this committee 
struggled in its creation.
    This committee has the responsibility of prime authority in 
this House for homeland security. We hope that we will have in 
some ways the same sort of relationship that the Armed Services 
Committee has with the Defense Department, not that one is a 
lackey for the other, but rather that there is a mutual respect 
and there is an understanding that the authority, even though 
you have to deal with the Appropriations Committee, the 
authority resides in this committee.
    I think you will find with the diversity of experiences and 
districts that we represent, that we can be helpful, 
understanding that we have an independent job under the 
Constitution compared to yours. So I really do look forward to 
that in the future.
    I have been one that, along with most, if not all members 
of this committee, strongly supports the idea of risk-based 
assessment. I am certainly willing to support that from your 
department. I will say I had some concerns about UASI as well 
when I see a couple of major cities in California dropped out, 
when the answer was we put more elements into the formula and 
those elements, such as international border, a nuclear plant, 
number of foreign visitors, is cranked into the equation, and 
then San Diego drops out. That is hard to understand.
    I know you have heard about the concerns I have had for 
Sacramento, where it appears the major reason is that Folsom 
Dam, which is by the Bureau of Reclamation's lights, the number 
one water structure threat in America. That is what they feel 
it is, and it is eight miles outside of the circle that you 
folks have drawn, and all the consequence, including my house, 
that is a little personal note, happens to be within the zone. 
You did have Mr. Steppen call me and suggest that we can sit 
down and chat, but we need to do that. So I will hope to do 
that with him, and then also to discuss it with you.
    Let me go on to a couple of things. One is I want to know 
under this budget if you believe it accelerates the opportunity 
for TSA to apply technology to its job. We cannot just continue 
to view this as a labor-intensive operation, which is 
tremendously expensive. Everybody that we have had before our 
committee comes to the conclusion that it is intelligence-
gathering, analysis and application, and then technology 
application that is the way we are going to do it.
    And yet, I am concerned that we do not see that technology 
application in the first instance as quickly as possible. What 
in this budget would give me reason to believe we are moving in 
that direction?
    Secretary Chertoff. Well, first of all, let me just 
emphasize, I look forward to having as much of informal contact 
between myself and my department and this committee as you do. 
I think frankly it is easier and better for all sides if we do 
have our discussion informally. Once you get into a hearing, it 
is very formal and lengthy.
    As it relates to TSA, we have approximately $86 million in 
the budget for research on explosive countermeasures, which of 
course would be directly relevant to getting that next 
generation of technology in TSA. There are two dimensions to 
the problem. One is we have to get the next generation of 
technology. We have started to deploy some of this out there, 
puffers and things of that sort.
    The second thing is we have to construct a financing system 
that allows us, these are major capital investments, that 
allows us to be a little bit more nimble in terms of our 
acquisition of technology and also does not lock us into 
obsolete systems, so that sometimes buying a lot of expensive 
equipment that is going to be obsolete in 4 or 5 years is not 
necessarily the right way to go. I think we need to be somewhat 
creative in exploring how once we have identified that next 
generation, we actually acquire and deploy it.
    Chairman King. The time of the gentleman has expired.
    The gentleman from New Jersey, the ranking member of the 
Emergency Preparedness, Science, and Technology Subcommittee?
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Secretary, I support your stewardship, and I want to 
preface my questions. The cards you were dealt came from a 
mixed deck.
    Chairman King. The time of the gentleman has expired.
    [Laughter.]
    Secretary Chertoff. No, keep it going.
    Mr. Pascrell. This is not off my time.
    I hear you singing more the choirmaster's lines, and that 
disturbs me. I want to get into some very specific areas.
    You talked about UASI and yet you know very well, as I do, 
Mr. Secretary, that when you add up the cuts in this budget to 
the FIRE Act, to the SAFER Act, to the law enforcement 
terrorism, I will not even get into the emergency management 
performance grants and the metropolitan medical response 
system. Those three things that I just mentioned, out of the 
$762 million in cuts, and what you have done is increased the 
original program by $156 million. It does not add up. It is not 
acceptable to members on both sides of the aisle.
    Last year, you were honored at the Congressional Fire 
Services Institute. We sat on the dais together, if you 
remember. I was heartened when you gave your firm commitment to 
all the firefighters, there are about 2,000 of them in the 
room, from around the country, pledge your support for their 
needs.
    Was it your personal idea to cut the Fire Grant program, 
which existed before 9/11, Mr. Secretary? Was it your idea to 
eliminate the SAFER program, or did someone else think of these 
gems and you just signed off on them?
    Secretary Chertoff. Well, let me deal with both of those. 
The fact of the matter is, I am not saying the Fire program 
began on 9/11, I am saying since 2001 there have been $3 
billion, 29,000 communities have gotten money. That is, as you 
point out, for equipment and for trucks and things like that.
    Mr. Pascrell. Excuse me, Mr. Secretary. This is a very 
different program than Homeland Security programs. This is a 
competitive program, the FIRE Act. You are talking two 
different situations altogether. It is not going to be 
acceptable that you meld them because I know the budget, I know 
the program, I had something to do with writing that program, 
as you know.
    Secretary Chertoff. No, I am not confusing it with a 
Homeland Security grant. I understand it is different. What I 
am saying is that I would not normally expect to see 
investments in what are capital acquisitions continue at the 
same level, because you acquire capital items, they do 
ultimately deteriorate and you have to replace them, but every 
year your capital expenditures are not the same.
    Mr. Pascrell. Mr. Secretary, we are not just talking about 
capital items in the Fire grants. You know there are wellness 
programs in the fire departments throughout this country, 
31,000 and one million firefighters, career and volunteer. You 
know that this is a very competitive program. There are $3 
billion in requests just for the year 2006.
    So when you say there is X amount of dollars spent since 
2000, you are absolutely correct, but this was done on a 
competitive basis. The money went right to the fire 
departments, just like the COPS program, and I won't even get 
into that today. You do not want to hear my liturgy on that. 
The point of the matter is, you are failing the firefighters of 
this country.
    I want to ask you another question, if I may. Does this 
administration year after year try to impose the most egregious 
cuts and eliminations to programs that are designed to help our 
first responders?
    I want you to think about this, Mr. Secretary. I am very 
sincerely and seriously asking this question. There is an 
article in the New York Post, God forbid me, on February 13, 
there is a quote from the homeland security spokesman, Marc 
Short. You know who Marc is?
    Secretary Chertoff. Yes.
    Mr. Pascrell. He said in regards to the Fire grants that 
the president ``believes the program should be targeted towards 
terrorism prevention.'' Now, that was not the original purpose 
of the Fire grants. These needs are basic. They existed before 
9/11. They need to be responded to.
    I warned you of this and you seemed to agree when you first 
came on board that we should not meld them; there was a 
different purpose, a different characteristic. And this is just 
one example that I am putting up to you. It is a mirror to what 
we are trying to do, and shuffle warmups on the table, under 
which warmup rests the program.
    Do you believe that the Fire grant program should no longer 
be used to help fire departments meet their basic needs? And 
should instead be focused on terrorism prevention?
    Secretary Chertoff. No. I did not see the article in the 
Post.
    Mr. Pascrell. That is what he said. Take my word for it.
    Secretary Chertoff. I do not doubt your word. I think the 
FIRE Actire act grant program is not a terrorism program. I do 
not want to say a legacy program in a negative way, but it is a 
preexisting program. What I will say, though, is this. I will 
say that when it gets to issues like personnel expenses, I have 
to say philosophically, things like personnel expenses and 
things of that sort, which are very well worthwhile, seem to 
be, absent unusual circumstances, the kind of core 
responsibility of state and local governments.
    Otherwise, I mean, I do not know where I would draw the 
line. I do not know how I would say to people, well, if you are 
going to pay a lot of personnel expenses for this type of first 
responder, you should do it for other types of first 
responders. And then the government is in the position of 
paying for salaries for a lot of people the government does not 
actually even employ. I have to say philosophically that 
strikes me as not--
    Mr. Pascrell. Mr. Secretary, we have it in the COPS 
program.
    Chairman King. The gentleman's time has expired.
    Mr. Pascrell. And you want to eliminate the COPS program? 
Do you support that?
    Secretary Chertoff. I think that programs in general, 
absent, we do have some exceptions, but the general idea that 
the federal government ought to fund significant amounts of 
payroll for first responders in the states and locals, 
particularly when those are not people that are accountable to 
us, I think that is kind of fundamentally inconsistent with 
where the federal government has got to be focused on.
    Chairman King. The gentlelady from Florida is recognized.
    Secretary Chertoff. And we might disagree about the 
philosophy of that, but I think we ought to be getting them 
capital equipment, training, things which you cannot reasonably 
expect them to do, I think we should do, and I think that's 
where our focus ought to be.
    Chairman King. The gentlelady from Florida?
    Ms. Brown-Waite. Thank you very much, Mr. Chairman.
    Mr. Secretary, I appreciate your being here. I know you had 
a lot to do this week, but we are glad that you are here.
    I had some concerns about the reduction, or the total 
elimination of Real ID grants. I remember reading an article 
recently how states are not getting the funds to implement the 
Real ID bill which we passed. So that would be question number 
one.
    Question number two relates to reduction in TSA training, 
baggage, passenger and passenger screening. I have a question 
and a comment. Obviously, from where I am sitting, you can tell 
I am new on this committee, and I go home every single weekend. 
When the TSA people at Tampa tell me the biggest glitch in the 
system is something that would be very inexpensive to fix, I 
have to wonder why, when my staff contacted your department, 
they were really blown off. It may very well be that I am the 
newest member of the committee, but let me tell you what the 
problem is. I challenge every member here to, when you go home 
and you go through TSA back home in your district, ask them if 
this phenomena exists there.
    The TSA screeners when they come into the airport have to 
go through the same screening every passenger does. They get 
checked. However, the cleaning people at the airport, the 
people working at the various concessions, they go through the 
``back door'' and they go through the back door with a little 
scanner, little card that scans them in. Now, you want to 
believe that the same person to whom that card was granted is 
the person going through the back door.
    I have a very high level of concern about that. If the rest 
of you have not asked the TSA screeners where you go back home, 
ask them about this phenomena. They are not comfortable with 
it, and I do not think any passenger traveling should be very 
comfortable with it.
    I also, sir, do not think that your department should blow 
this issue off. To say that the employers are screening them, I 
am sorry, it is just not enough. It does not give me any 
comfort. I do not know what that screening is. We do not know 
the background screening. And sir, with all due respect, I will 
venture to guess that half of the people who are employed at 
some of the airports that I have gone through are probably 
illegal aliens. So that is a concern of mine.
    I also would like some specifics about the $274 million 
guest worker program that we are being asked to pay for, and is 
it based on legislative proposals we have here in Congress, or 
is this a new plan. You can tell I am a new person on the 
committee because now we get called to go vote.
    [Laughter.]
    Secretary Chertoff. First, I do not know who your staff 
contacted. I know that TSA and Assistant Secretary Hawley try 
to be very responsive. If you contact him directly, I am sure 
he will make sure you are heard.
    I know he is particularly focused on this issue of 
background checks for people who get into secure areas. There 
are parts of the airport that are designated as secure areas. 
There is supposed to be a background check, security check 
process for those people. We are currently in the process of 
finalizing a regulation that may address that and enhance that 
to some extent. I think he would be happy to talk to you about 
it.
    I can tell you we have increased by $73 million the amount 
of money for aviation security, including an additional $10 
million for Transportation Security Officer screener retention. 
We have put into effect some programs in TSA itself to create 
enhanced career prospects for TSA screeners. Assistant 
Secretary Hawley can give you a lot more detail about that.
    So we are focused on the issue of who can get into the 
airport and move around, and what kind of background checks 
they get, as well as trying to upgrade the retention of our 
experienced screeners, and also upgrade their training and give 
them better training on more sophisticated screening.
    Ms. Brown-Waite. Well, sir, don't you think it is a little 
demoralizing if they have to go through the screening and yet 
other people do not? If I were a TSA screener, I would be very 
upset, as the TSA screeners in many of the airports that I fly 
through in Tampa and around the state of Florida, that they are 
very, very upset about this. It is like saying, okay, they are 
the government employees there to make us feel more secure, but 
who knows who is coming through the back door.
    Sir, I would like to believe these people are only in the 
non-secure areas, but you know, when they wheel those cleaning 
carts around, right alongside the passengers, who have already 
been screened, you do not know what they could be passing to 
them.
    So please look at this, and look at this with a more 
serious eye, and let's get moving on making those airports 
really more secure.
    Secretary Chertoff. We are looking at it. I will take back 
to Assistant Secretary Hawley your particular concern. I do not 
know the configuration at Tampa Airport, although I have been 
there. I really do, in principle, we always need to be testing 
to see if there is a loophole in the security system because we 
are trying very hard to close all those loopholes in terms of 
our screening.
    Chairman King. The time of the gentlelady has expired.
    I would advise the members of two 15-minute votes. We are 
going to go right through. Congressman Lungren is going over. 
When he comes back, he will take over the chair, so we are 
going to go directly through.
    The gentlelady from New York, Ms. Lowey?
    Mrs. Lowey. Thank you very much, and welcome, Secretary 
Chertoff.
    I just want to comment again on several of the issues that 
were brought up by my colleagues.
    First of all, my colleague Congresswoman Brown-Waite, I 
want you to know you are a new member, but you have it. You are 
right on target.
    I have been talking about that. I have been introducing 
legislation. People who service the airplanes, the caterers, 
the mechanics, all go into the secure areas. They get a badge. 
Sometimes they are reevaluated every 3 years, maybe not every 3 
years. I have tried to get from the department the number of 
people. Mr. DeFazio has been working on this as well. I do hope 
there is a sense of urgency. We can stop talking about it. We 
can do it.
    I am pleased to go through the metal detector and I think 
anybody who goes through secure areas must, in my judgment, 
have to go through that metal detector as well.
    Chairman King. If the gentlelady would just yield on that 
for a moment, and I will give you the time at the end.
    Mrs. Lowey. Yes.
    Chairman King. Congressman McCaul, I believe, his 
Subcommittee on Investigations is going to be examining that 
situation in detail. I share your concern.
    Mrs. Lowey. Well, thank you. And there is a gaps bill which 
I introduced, and I hope we can circulate it, and I hope there 
is some action.
    There is also some discussion from my colleagues on the 
issue of interoperability. Again, I have been talking about 
this for years. I have called on the federal government to 
create an interoperable strategy. You never even mentioned it 
in your testimony. It would require coordination among state 
and local governments, which you did reference, provide grant 
funding for first responders. The call has gone unanswered. It 
has not been done, a lot of talk.
    The fiscal year 2007 budget request cuts first responder 
grants. That has been mentioned; eliminates the only grant 
program dedicated to interoperability; and of the approximately 
180,000 DHS employees, only five work in the Office of 
Interoperability. There are no standards. There is no national 
strategy.
    What I really ask you with my colleagues, and this is a 
bipartisan sense, where is the sense of urgency? We saw it 
plague first responders in Oklahoma City in 1995, certainly in 
New York more recently in 2001, in the Gulf after Katrina. We 
heard stories from people on top of roofs throwing bottles 
down. We are back to the days of Paul Revere. That was the only 
way they could get a message to anybody.
    Frankly, it is time to stop talking about task forces and 
studies. The problem has to be solved before the next disaster, 
and it can only be solved, in my judgment, with federal 
leadership, which has been nonexistent. So I know that we all 
are on the same page on this. You and I have had discussions 
about this. We are not talking about a major, major issue that 
suddenly we thought about. We have been talking about it for 
years. We need a national strategy. We need some direction. You 
mentioned some of the options which you are considering. I wish 
you would just do it.
    Secretary Chertoff. I think that is kind of where I am 
going. We did RapidCom.
    Mrs. Lowey. With all due respect, it is not even in your 
testimony. Perhaps you do not think you need more than five 
people to work on this in the Office of Interoperability. In 
fact, I must tell you, Mr. Secretary, before you I had the 
legislation to deal with the office. Well, I was delighted that 
the administration created the office, they just did not fund 
it very much, and they only put five people in it.
    Secretary Chertoff. I know we have had people working on it 
from the Science and Technology Directorate. My sense was, I 
have actually been focused on this, in the last month I have 
kind of raised the issue myself again, like, where are we with 
this, because I knew we had done RapidCom. I had a little bit 
of a sense it was like everybody, it was like Alphonse and 
Gaston, people were saying, well, let's wait for Congress to 
act on the band width, and well, let's wait for the perfect 
solution.
    I think what we need is command-level interoperability. I 
think the idea that every single firefighter and policeman has 
to talk to each other is not necessarily what we need. Rather 
than let the perfect be the enemy of the good, I think we 
should lay down some technical standards, we are going to have 
lay down as a requirement that communities that want to get 
funding or assistance for this will agree upon common protocols 
and language, and not just, and you know from New York, you 
cannot always get the first responders, the police and 
firefighters do not always sing off the same sheet of music.
    So you have to crack some heads a little bit. I know the 
mayor did that in New York last year. We are going to have to 
insist on that.
    Mrs. Lowey. If you could report back to this committee in a 
month, perhaps, how you would move forward on this issue, I 
would be appreciative. We are not talking about everyone buying 
the same red and green Motorola cell phone. We are talking 
about a strategy of coordination so that each local 
firefighter--oh, I am sorry. The red light is on.
    I look forward to hearing from you, and hopefully we will 
not have to bring this up again at the next hearing, and also 
the issue that my colleague brought up with regard to the 
secure areas.
    Thank you very much.
    Chairman King. The time of the gentlelady has expired.
    The gentleman from New Mexico, Mr. Pearce?
    Mr. Pearce. I appreciate your being here. I will make some 
observations of which you can respond to. I will make my 
observations and wrap up with a question. I would like an 
answer to the question, and you can address the observations is 
you would care to.
    We had significant questions last week during the 
classified hearing on the budget analysis and operations. They 
were stumped. They said they did not know the answer and the 
numbers appeared to need justification and we have not heard 
anything else. It was about on the ninth when that occurred and 
they have not returned our call.
    The concept of the trailers being out there and not being 
used is going to be very similar to the one, if we build 
retention space where it is not needed, I have suggested 
repeatedly to the agency that they consider contracting with 
state and local county jails, city jails. We do not get a 
response to that. I was not amazed last week to hear Mr. 
Aguilar declare that the border is secure. I will tell you that 
it is the mantra I hear down to the field level.
    So management says the border is secure. That puts them in 
a very small group of people in the U.S. who believe the border 
to be secure. Not even the field agents say that, and the 
contradicting testimony in that same hearing, again from the 
national representative of the Border Patrol agents, 
contradicted that. At some point, management needs to, I think, 
acknowledge that the border is not secure. They are the only 
people in America who believe it to be.
    At that same briefing, or one closely aligned with that, 
Mr. Aguilar said that it was impossible to tell if the vehicles 
that crossed the river were military vehicles. In fact, he 
declared them unilaterally to be private Hummers. The sheriffs 
who testified immediately after that had very contradictory 
testimony and showed the reasons that the Hummers were in fact 
Humvees of military stock, and the question of Mexican military 
or federales incurring or encroaching into the U.S. space is 
significant.
    I visited with the DAs last night from the southern part of 
New Mexico who prosecute those border issues. They said that 
they frequently have problems with federales who are working 
for the drug cartels. These are the DAs and the prosecutors, 
not just the regular citizens.
    The retreat off the border in the Second District of New 
Mexico that I represent, the paved road that the border agents 
use is seven miles from the border and Mr. Aguilar, the head of 
the agency, said it would be the worst use of resources to put 
people on the border. What am I to tell the people in my 
district who are on the border and are left in a no-man's land 
that actually gets taken over by people coming across from the 
other side, since the territory is ceded to them by the retreat 
to the paved road. It is an ongoing and difficult circumstance.
    The question that I would really like to get an answer to 
is you have made public statements that the catch-and-release 
policy is dead and in your testimony you say we are now on a 
catch-and-return policy. Judge Carter, who represents a 
district in Texas, during his trip to the district in January 
was visiting with people who are processing OTMs. He said, 
well, it is good the catch-and-release program is gone. How 
long will it take these people to be gone? They said they are 
not going to be gone. He said catch-and-release, that is dead. 
And they said, it is. It is now catch-process-and-release.
    I asked Mr. Aguilar about that and he declared that, he was 
sketchy, but at the conclusion you would understand that we 
were not catching and returning 100 percent, and he would not 
declare at what level we were returning.
    So all of this goes to say that the credibility of the 
agency at some time has to come under consideration. I would 
like for you to address the catch process and release.
    Secretary Chertoff. Let me do that.
    Chairman King. Let me interrupt for a second. There is only 
about 1 minute left in the vote. Have you voted yet, Steve?
    Mr. Pearce. I have not.
    Chairman King. I can either turn the chair over to you, and 
we miss the vote.
    Mr. Pearce. I would defer.
    Chairman King. Let's say it is subject to the call of the 
chair, probably about 10 minutes.
    Mr. Pearce. Okay.
    Chairman King. The committee stands in recess.
    [Recess.]
    Chairman King. The committee will come to order.
    Mr. Secretary, we regret the mixed signals on the vote 
there. I realize that you will have to be leaving probably 
within the next half-hour. We will continue. If you could begin 
your answer to Congressman Pearce's question.
    Secretary Chertoff. I will be happy to.
    Chairman King. Perhaps you may want to restate the 
question.
    Secretary Chertoff. There were a number of different 
issues, one of which relates to a classified briefing, which I 
obviously cannot talk about here. You asked a question about 
not want to build a lot of retention space, but the answer is 
that is what we do. We do have some federal facilities that 
have existed for space, but we are not looking to build more 
space. I do not want to build a lot of space that we may not 
need. We do want to contract out for it. We do it with some 
state and local facilities. I do not know if we do it 
particularly with the facilities you are talking about.
    In terms of Chief Aguilar saying the border is secure, I do 
not know what he said. I now that he and I both agree we need 
to get it secure and we believe it can be made secure, but we 
are not there yet, but we do have a strategy to make it secure.
    Regarding the incursion, I have been told that the Border 
Patrol has reviewed an enhanced video that the Humvee appears 
to be an older style of Humvee that is not used by the Mexican 
military and that it is consistent with, the Mexicans 
apparently apprehended four of the individuals involved, and 
that this is consistent with the fact that drug cartels do use 
military-style clothing and equipment.
    I know that from just my own experience and also 
anecdotally that there are certainly corrupt police officials, 
and even military deserters who have been recruited by drug 
gangs. I know there is a group called Lajeras, which is former 
Special Forces-trained individuals who do work for one of the 
drug cartels.
    So we take very seriously the issue of the border and 
particularly violence at the border and people who are 
paramilitaries at the border. I would not want to suggest, 
though, that the Mexican government somehow officially is 
trying to aid criminal activity because that is quite the 
opposite. I think they have been particularly, have tried in 
the last 6 months to be very cooperative with us in terms of 
helping us with some prosecutions, putting some vetted police 
at the border.
    I have spoken to the ministers of government and public 
security. I know they understand there is a serious problem for 
Mexico, and not just the United States. I am actually hoping to 
meet with them in the near future and talk about what we can do 
to further make sure Mexico is having vetted people on its side 
of the border policing against these paramilitary-type of drug 
groups that are unquestionably posing a danger to our border 
patrol and our law enforcement officials.
    Finally, on the issue of catch-and-return, I have to be 
really crystal clear about this. I set a target of the end of 
the fiscal year to get to 100 percent. I did that because I 
wanted to be ambitious, but I did not want to say it was going 
to be cured tomorrow. I do not know the specific conversation 
you had with someone at ICE. The program relates to the area 
where I am legally able to do expedited removal. That is 
basically 100 miles from the border, for people who are 14 days 
or less in the country.
    As I said before, I do not know if I said it here, right 
now we are hitting two obstacles, where we have not been able 
to get to catch-and-return. One is family groups, where we have 
to find facilities to keep children. The second is El Salvador. 
We cannot use expedited return in El Salvador because there is 
a court order that forbids it, so we either have to change the 
court order, and we have gone to court to do that, or I think 
we have either submitted or are close to submitting a piece of 
legislation to Congress that we think would enable us to now to 
expedited removal for El Salvadorans.
    When I look at the statistics, and I look at them every 
week, I look at the gap. The gap is the difference between the 
number of people apprehended and the number of people who go 
into detention. Non-El Salvadorans, the gap is pretty small for 
the countries that we are doing because it is really only the 
family groups we cannot detain. The gap is big and getting 
bigger for El Salvadorans, and that is because among other 
things I read in the paper that non-El Salvadorans are starting 
to call themselves El Salvadoran because they have now heard 
that El Salvadorans do not get removed, and so they are trying 
to take advantage of that. That is why this is a problem we 
really have to fix.
    I think that answers all the questions.
    Chairman King. The gentleman from Rhode Island, Mr. 
Langevin?
    I remind members the secretary will have to leave by 12:15. 
We got delayed by the vote, so if members could try to move 
their questions along, I would greatly appreciate it.
    No reflection on the gentleman from Rhode Island.
    Mr. Langevin. I was going to ask for a point of 
clarification on that, Mr. Chairman, but thank you for 
clarifying.
    Mr. Chairman, thank you for recognizing me.
    Mr. Secretary, thank you for being here and for your 
testimony. I have a couple of questions here. Let me begin on 
an issue that certainly troubles me the most and keeps me awake 
at night. In my work as ranking member on the Subcommittee to 
Prevent Nuclear and Biological Attack, one of the areas that I 
am most concerned that we are most vulnerable, of course, is 
that a nuclear device or weapons-grade material could be 
smuggled across our borders and be detonated in a U.S. city. It 
is the ultimate nightmare.
    I recently had the opportunity to visit the Nevada Nuclear 
Test Site with Chairman Linder and Congressman Dent. Let me say 
that I am very pleased with the progress that is being made on 
radiation portal monitors. I particularly want to mention that 
I have a high degree of confidence in Vayl Oxford, the director 
of DNDO, and the work that is being done there. They have an 
operational site, even though it is still in a sense under 
construction. They are actually testing equipment there right 
now, which is where I believe, of course, at our ports and 
border crossings, we are very vulnerable, so we need to get 
that equipment fielded as quickly as possible.
    What I would like to know is when the administration will 
meet its promise to deploy radiation portal monitors, or RPMs, 
at all designated points of entry? I would like to point out 
that in December, this committee voted to require deployment of 
RPMs within one year.
    Next question, I also notice that the budget contains a 
large increase for the Domestic Nuclear Detection Office. I am 
glad that you recognize the importance of protecting our nation 
against growing nuclear threats. But can you tell me how you 
see the role of DNDO fitting into future plans of DHS?
    Secretary Chertoff. Congressman, I agree with you that at 
the top rank of any set of threats we have to be concerned 
about is nuclear, not only the device itself, but the smuggling 
in of a radiological bomb. I am pleased you had an opportunity 
to go to the Nevada test site. I actually hope to get out there 
myself and see it at some point.
    I think that by putting DNDO together, this is really the 
right way to do it. We assembled all the elements of the system 
that we want, except for those that are outside of our 
department's jurisdiction or overseas, and even there we have 
pushed out a little bit. And so we are building our technology 
to fit within a system.
    I cannot tell you right at this moment, I do not have it in 
my head when we will finish the deployment. I believe we have 
done the deployments at the significant land ports of entry. We 
have done some at the maritime ports of entry. We are 
continuing to roll them out. What we are doing, and I can get 
you the answer of what our expected timeline is.
    In terms of the large increase, the way we are looking to 
fit this in is we want to have DNDO do the groundbreaking 
research, do the testing and development, be involved in the 
deployment and in the reach-back capability when you do have a 
hit in terms of being able to ascertain what the isotope is and 
what the particular threat is. They will not actually be the 
operators. They will not actually be doing the radiation portal 
operations, but they will be providing technical support and 
making sure the overall architecture looks and fits in 
together.
    We will have to integrate this with the megaports 
initiative overseas, run by the Department of Energy, and make 
sure that we are tapped into that and fully integrated with 
that, as well as within the various other elements in the 
intelligence community designed to focus on counter-
proliferation.
    So we have the responsibility, first of all, to make sure 
we have an overall architecture internationally in terms of 
domestic nuclear detection, and then DNDO takes a special role 
in making sure that we manage the actual activities inside this 
country with respect to these detection capabilities.
    The last thing I want to say is we will obviously be 
working with CBP and with state and local communities as we get 
next generation technology, particularly mobile technology, 
surge capacity, types of capabilities we would have if there 
were an event where we suddenly had to go out to an event. DNDO 
is going to be integrated with all of those elements. That is 
one of the reasons we have put a significant extra amount of 
resources into it.
    Chairman King. The gentleman from Pennsylvania, Mr. Dent?
    Mr. Dent. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary.
    Some agencies in my state have had a hand in planning 
homeland security emergencies on a local level. They maintain 
that the product put together by the HSOC is oftentimes 
untimely and irrelevant to the kinds of problems they are 
trying to face to prepare for a homeland security event on a 
local level. I guess my question to you is, have you heard this 
type of complaint before? And what would you propose to do to 
make the HSOC more responsible to the needs of local homeland 
security agencies and emergency management professionals?
    Secretary Chertoff. I am not sure I have heard that before. 
Let me talk about the different kinds of products that we put 
out, and recognize that the HSOC is still a work in progress. A 
lot of what the HSOC does is information sharing. It is the 
portal actually through the Homeland Security Information 
Network in which a lot of exchange of information occurs. I 
might add that actually in Katrina, the only actual operational 
communications that was, it is my understanding that we had in 
the area was through the homeland security information network, 
which is a Web-based product.
    A lot of what we do is put out intelligence information. 
Some of that is specific threat warnings that goes to homeland 
security officials at the state. Some of it is intelligence 
products that talk about kinds of things you have to look into. 
We do not obviously deal with local issues, issues of local 
concern that are nonterrorism-related, but we do for example do 
lessons-learned kinds of products on, if there have been 
historical types of attacks, or what to look for in terms of 
particular types of threats. I have seen some of the product 
that comes out.
    Ultimately, I am going to be encouraging our intelligence 
analysis branch under Charlie Allen to actually integrate some 
of our intelligence people locally. We have done that in Los 
Angeles. We have done that in New York. I do not think we are 
going to do that in smaller areas. We are also working as 
various states build intelligence fusion centers, to assist 
states with grants for fusion centers, and then to make sure 
they are linked up to the HSOC so that we do have a common 
operating picture when there is an event someplace.
    So if there is a particular issue people have, I am open to 
hear about it, but I have actually think I have gotten reports 
that things are progressing well.
    Mr. Dent. Okay. Thank you. My second question deal with 
interoperability. You may have touched on it previously. How 
much of this problem with developing these interoperability 
capabilities do you believe is rooted in the failure of local 
and state governments or agencies to spend the monies that have 
already been appropriated to address this problem? What are you 
doing to help unclog the so-called pipeline? It seems like a 
lot of the interoperability money may be stuck en route.
    Secretary Chertoff. I think that is very good point. I 
think that we have several billion dollars which is in the 
pipeline. I am no being critical here. I mean, it is wise for 
people to not just spend the money willy-nilly. But that is 
money which can be spent on upgrading equipment for 
interoperability. Where I want to see us go is I want to give 
the guidance necessary to allow intelligent decisions to be 
made about spending the money.
    Once we do that, I do not know that, I mean, I think there 
is money in the pipeline that can be used for that. I think we 
just need to get about the business of finally making some 
decisions about how to go forward with this.
    Mr. Dent. Finally on the issue of nuclear detection 
capabilities, I, along with Mr. Langevin and Mr. Linder, did 
have the opportunity to visit the Nevada test site. It was a 
meaningful experience. While the technology is advancing, and 
certainly encouraging, I worry about its application at the 
ports. I know you talked about the broader issues of 
architecture. It just seems that we are looking at trucks, but 
not other types of vehicles that maybe should be passing 
through the various portals. Have you given much thought to 
that issue?
    Secretary Chertoff. We have. We are wrestling with it, in a 
stage where we are both acquiring current technology, but also 
looking to transition to the next generation of technology. We 
are looking at obviously containers to come through. We are 
looking at trucks, you know, anything that is large enough.
    Mr. Dent. Light trucks or even cars, are you looking at 
those?
    Secretary Chertoff. Well, the next generation of technology 
should give us a capability to be more mobile and have smaller 
and less expensive detection equipment. That would allow us, 
for example, and one of the things we are looking at is, if we 
want to pick a city and we do want to set a perimeter around 
the city where we would check, we need to figure out what 
should the perimeter be. Those are the kinds of things we are 
working on now, and then what kinds of sensors do we need to 
deploy outside that perimeter.
    Before we get to the point of doing that, we have to be 
comfortable we have a level of technology that can distinguish 
normal radioactive material like marble from things which are 
particular isotopes that emit particles that suggest we have a 
problem. We also have to deal better with the ability to 
penetrate shielding material. But our end-state is exactly what 
you were talking about, the ability to move out of just being 
at the ports and looking at the big containers, and actually 
thinking about ways to detect material that might be in transit 
in other kinds of vehicles, particularly around areas that are 
vulnerable.
    Chairman King. The gentleman from North Carolina?
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. I would echo what 
others have said this morning. I hope this is more frequent 
than it has been in the past. I think it is important to us.
    As you know, I have been concerned by the department's 
advance award of contracts for some things, but not for others. 
For instance, there was an advance contracted for demolition, 
debris removal, taping, a host of other items, tops put on 
buildings that had blown off due to hurricanes. We were told 
that these kinds of awards were made and are made to the people 
in each disaster. Please tell me how they are made and tell me 
across the country. Because time is limited, so you have a set 
number of companies with professional expertise. Yet I know 
that they subcontract out the work. You and I know that is 
true.
    My question to you is, tell me what you have implemented to 
change the system, because it is not within the area. There are 
a lot of areas outside. And when the implementation of a 
Stafford Act requirements that local businesses have a 
preference for these kinds of contracts, what have we done to 
make that happen.
    Secretary Chertoff. This is a two-stage, actually a three-
stage process. First of all, in terms of what we are currently 
doing, we have pushed very hard on the operations currently 
under way. We have pushed very hard in the Army Corps of 
Engineers, which is typically the one that gets involved in 
this, to make sure they are driving these things down to 
locals.
    But you have put your finger on a more fundamental problem, 
which is the role of the Army Corps of Engineers in debris 
removal. It is more expensive going through the Army Corps of 
Engineers. You are quite right, eventually they wind up hiring 
local people. So the question is, why are we doing something 
that is more cumbersome and more expensive, and puts an 
intermediary in who is generally a large out-of-state 
contractor.
    We have now tried to, there was actually a funding bias in 
favor of the Army Corps in terms of the percentage of state and 
local match.
    Mr. Etheridge. Are we putting things in place that fix 
this?
    Secretary Chertoff. Yes. Let me tell you what we are doing. 
The first thing we are doing is we are going to eliminate the 
funding bias. Second, we are in the process of getting a 
registry of companies that local officials can choose to bring 
in to do, and setting templates they use for contracting. We 
are happy to have them do locally almost immediately. We 
recognize a lot of time what is going to happen is the first 30 
days they will not be in a position to do it, but we want to 
give them the tools to hire locally. We want to equalize the 
funding situation.
    Mr. Etheridge. I guess my biggest question, Mr. Secretary, 
is will it be in place before the next hurricane season?
    Secretary Chertoff. I think a significant amount of it will 
be.
    Mr. Etheridge. Okay. I think that is important. You and I 
know those are coming no matter what.
    My next question is, this past Monday, my understanding is 
that you told a room full of state emergency managers, ``The 
state emergency managers and first responders will always be 
our nation's first line of disaster response.'' Okay. If we 
take that, and I assume you said that.
    Secretary Chertoff. I did.
    Mr. Etheridge. Now, that being said, the budget eliminates 
local law enforcement, terrorism prevention program; cuts the 
assistance programs almost 50 percent; cuts the emergency 
management performance grant program, which states use to 
develop federally mandated evacuation programs that are 
mandated by the federal government, that is a mandate, either 
that or it is going to be an unfunded mandate; and emergency 
preparedness plans by 20 percent.
    Now, how do you reconcile those words with actions, and I 
know there have been people in the administration who said, 
well, there is money in the pipeline that has to be spent. Mr. 
Secretary, I served at the local level. There are certain 
guides and regulations there. Money may be in the pipeline and 
it is obligated. The money hasn't been dispensed. It has been 
obligated. It is not money you can use for something else.
    Chairman King. Mr. Secretary, if you could give as brief an 
answer as possible so everybody can get a question.
    Secretary Chertoff. Yes. I was not being critical in saying 
it, but there is money in the pipeline. And also we are putting 
money in things like urban areas as security initiative grants, 
state homeland security grants, the TIP program, which are 
available to support these kinds of capabilities. What we are 
trying to move away from is a system where there are very 
specific programs. We want communities to look at what their 
priorities are within the general list of capabilities, and 
make some choices before they come to us. That is the kind of 
short answer.
    Chairman King. The gentleman from Connecticut?
    The ranking member and I have agreed that questioning will 
be limited to 3 minutes for the balance. No reflection on Mr. 
Simmons.
    Mr. Simmons. I do not take it personally, Mr. Chairman.
    A couple of points, very briefly, on the Fire grants and 
some of the other comments that have been made by my 
colleagues. I agree with them. My suspicion is that these cuts 
did not originate on your desk; that somewhere along the line 
they probably were added on. On that basis, I will work with my 
colleagues to restore those programs.
    Also, I agree with my colleague from California on the 
urban area risk assessments. For Sacramento, for San Diego and 
in my case, New London, to be off the list of cities at risk 
does not make much sense. So I think we have some important 
work to do there.
    I would like to talk about that part of your testimony that 
deals with information sharing. Common sense tells you that 
information worth sharing has to be good information. If you do 
not have good information, there is no point in sharing it. 
Common sense also tells you that if you can acquire information 
cheaply and easily, that is a good thing.
    This leads me to the testimony we heard yesterday from 
Charlie Allen and the discussion of open source intelligence. 
Homeland security lends itself to open source intelligence, 
especially when it comes to terrorism risk assessment for our 
infrastructure. The 9/11 Commission report supports it. The WMD 
report supports it. You have testified in favor of it. We have 
a new open source agency. But I do not believe this budget 
proposal is robust enough in that area. I think it pays lip 
service and nothing more.
    Would you and your people be willing to work with our 
subcommittee to strengthen that part of your proposal?
    Secretary Chertoff. It is a classified budget so I cannot 
really speak about it. I will say in general, I believe in open 
source. I think Charlie Allen believes in open source. We have 
put more money in general into the category of intelligence and 
operations. I know I am limited in what I am allowed to say, 
but I can tell you we do want to make sure we have adequate 
resources to pursue open source, as well as other kinds of 
analytic intelligence.
    Mr. Simmons. So I take that as a yes, you will be willing 
to work with us.
    Secretary Chertoff. I do not want to get myself into a 
jurisdictional battle on Capitol Hill about who gets what.
    Mr. Simmons. Of course not. We would never want to do that.
    Secretary Chertoff. I am going to be a neutral bystander on 
what committee has jurisdiction. I will, however, say that I am 
a believer in open source collection and analysis, and I 
believe that Assistant Secretary Allen is, and I will support 
him in that.
    Mr. Simmons. Thank you very much.
    Chairman King. The gentlelady from California, Ms. Harman? 
I understand also you want to remain after the hearing to make 
a statement?
    Ms. Harman. No, Mr. Chairman. You have accommodated all of 
us. That was my request.
    Chairman King. Okay. Great.
    Ms. Harman. Thank you.
    The construction on the roads made me 4 minutes late today, 
but the good news is I have had 3 hours to listen to Secretary 
Chertoff handle some tough questioning. I want to say maybe we 
have all turned a corner and we can move along smartly with a 
much better-equipped department.
    It was Mr. Lungren who was saying that it is refreshing to 
hear a former federal judge answer questions because the 
answers are concise, but that led me to reflect on the 
different skill sets between being a federal judge and being 
Cabinet secretary in one of the toughest assignments in 
Washington. I think federal judges need to have detachment, 
reflection, and the ability to do keen analysis, all of which 
you have in spades.
    Whereas being a Cabinet secretary on the hot seat, you need 
to have engagement, passion, and an instinct for action, very 
different skill sets. So I want to commend you for giving up 
lifetime employment to try out something which I would say is a 
lot harder. I also admire the fact that you have stood up to 
enormous political pressure to move to risk-based funding. I 
admire the fact that you are taking responsibility for Katrina, 
which is going to be very painful, and hopefully cause you to 
do things in a more active bent as soon as possible. You have 
not missed that.
    But I do want to discuss for 1 minute an emerging success 
story in the department, and that is intelligence. You 
testified last summer that that was a key area for you. You 
have hired the best guy in Washington, Charlie Allen, to be in 
charge of it. You are giving him his head and he is making big 
changes and he needs to make big changes. As a member of the 
Intelligence Committee, I am aware of the classified piece of 
that program, which I support and which I hope my whole 
committee will support.
    But here is the bottom line. Charlie Allen and you have to 
produce accurate, timely and actionable intelligence, and then 
you have to tell our first responders who may be first 
preventers if you get there in time, exactly what to look for 
and what to do. They have skill sets, too. They have been 
brought out in this conversation. They are setting up their own 
Fusion Centers and coordinating them locally. But the bottom 
line here is, the buck stops with you on producing homeland 
intelligence. I just want to give you 11 seconds to respond 
about how critical this function is and how useful Charlie can 
be.
    Secretary Chertoff. I agree with that. We have done a lot 
of transformative work with intelligence. I made him the chief 
intelligence officer. We are now embedding analysts in Los 
Angeles and New York. We are much quicker turning around now in 
terms of conveying threat information and intelligence 
information.
    Actually, there is a good example of the model I want to 
follow as secretary, which is I want to find very skilled 
people to run the components. I want to make sure they have a 
clear sense of priorities; that they are well linked up with 
me; that I am available to give them all the support they need. 
I do not want to micro-manage them. If I have to micro-manage a 
component head, I have the wrong component head.
    I am very pleased to say that as I look at the people we 
have brought on board, Charlie Allen, George Foresman in 
Preparedness, you know, who has 30 years as a homeland security 
adviser and emergency preparedness guy, finishing up as Mark 
Warner's head of homeland security.
    Chairman King. Mr. Secretary, the time is running.
    Secretary Chertoff. I think we are making a lot of 
progress, and I will stay an extra minute just so I can say 
this. I do not want to let the record stand without making a 
personal comment. I really appreciate the Congresswoman's 
comments.
    I was only a federal judge for 18 months. I spent most of 
my career in law enforcement. I did everything from kidnappings 
to murders. I was on duty on 9/11. I have a very vivid 
recollection and a little difficulty in getting engaged in 
pursuing things that are matters of life and death. What I do 
insist upon and what I will insist upon is assembling a team of 
people upon whom I can rely to think and execute in a way that 
does not require me to hold their hand.
    Chairman King. The gentlelady from Texas?
    Ms. Jackson-Lee. Let me thank the chairman and the ranking 
member for accommodating those of us who are here in this room 
for serious business. I am very disappointed in the secretary 
because there is not a time that he comes before this 
committee, and infrequently as he does come, that he does not 
have to shorten his timeframe, for what reason I do not know.
    Chairman King. In fairness to the secretary, votes were not 
scheduled on the House floor until 1 o'clock. We lost a half 
hour.
    Ms. Jackson-Lee. You are taking my time, Mr. Chairman.
    Chairman King. I will give you your time at the end.
    Ms. Jackson-Lee. I do not need an explanation from the 
chairman on why the secretary has to go. I thank you for your 
accommodation.
    Chairman King. Well, if you do not want to know the facts, 
that is your prerogative.
    Ms. Jackson-Lee. I do not want to know the facts.
    Chairman King. As usual, speak without the facts, speak 
without the facts.
    Ms. Jackson-Lee. I do not believe the facts are relevant. 
The secretary has not been before us since July 2005.
    Chairman King. I know you don't.
    Ms. Jackson-Lee. As I was saying, I am disappointed that 
you have to leave. I had a number of questions dealing with 
border security and the cuts that you are making in the state 
Criminal Alien Assistance Program, $405 million which will 
impact the state of Texas of $26.4 million. I will submit those 
into the record.
    What I do want to focus on because I happen to be concerned 
about lives, 1,300 lives, is this statement by the House 
committee, a failure of initiative, and particularly the role 
that you played, Mr. Secretary, or did not play in the lives of 
those who I still confront in the city of Houston.
    Now, I know that you have taken responsibility, but in fact 
I am rather frustrated by the back and forth between you and 
former FEMA director, Mr. Brown. At least Mr. Brown returned my 
phone calls. You did not. This picture is what I found on the 
streets of New Orleans, broken families as I walked among the 
rubbish.
    The controller general testified and said that in 
hurricanes, the senior federal official should be designated 
prior to the event. He indicated that neither you nor any of 
your designees filled the leadership role during that. He also 
found that you did not act proactively, only designating 
Hurricane Katrina as an incident of national significance.
    The controller general also said as a result the federal 
posture generally was to wait for the affected states to 
request assistance, and they were of course held up in the 
tragedy themselves. The Katrina Commission released a report 
that concluded that the manner in which you executed 
responsibilities was late, ineffective or not at all. These two 
reports are confirmation of what many Americans have come to 
believe, that your performance in response to the department's 
first major test at saving lives was an abysmal failure.
    In addition, it was noted that at 11 a.m., Katrina makes 
another landfall near the Louisiana-Mississippi state line and 
late in the morning, the 17th Street canal levee is breached, 
leading to the flooding of a vast swath of central New Orleans. 
This was on August 29.
    My question to you, Mr. Secretary, is in light of all these 
statements, and certainly let me comment on your excellent 
reputation in law enforcement, but homeland security is defense 
of America both from natural terrors or manmade acts, rather, 
and as well in natural disasters. Do you believe you should be 
fired, because I believe you should.
    Secretary Chertoff. Well, as I have said when this question 
comes up, I serve at the pleasure of the president. It is a 
public trust to have this position. As long as the president 
believes I can serve that trust and serve him and make a 
contribution, I will continue to do that to the best of my 
ability.
    Ms. Jackson-Lee. Why did you not respond? May I ask, and I 
appreciate your answer, why did you go to Atlanta, as opposed 
to immediately going into the region and taking leadership and 
taking control of the issue? Why did you, in light of the fact 
that the administration had emails prior to the landfall of 
Hurricane Katrina, not respond to the fact that they thought it 
was going to be catastrophic? And why did Mr. Brown have to 
call the White House and bypass you?
    Secretary Chertoff. I am not going to compress 2 and 1/2 
hours of testimony yesterday, but will respond to that as 
succinctly as I can. I am not going to characterize Mr. Brown's 
testimony, but I will tell you that on the Sunday before 
landfall, I looked in the eye all of the people who were 
responsible for managing this potentially catastrophic event, 
and there was no doubt it was potentially catastrophic. I 
looked at them on a video screen and I heard each one of them 
talk about how they were prepared; things were pre-staged; they 
were ready. I heard it from the head of emergency management in 
Louisiana, the National Guard representative, our regional 
director, who was responsible, from Michael Brown himself.
    I point-blank asked Michael Brown, is there anything you 
need that you do not have to get ready for this, that I have to 
give to you? And he said, we have everything we need, everybody 
is working together. I point-blank looked him in the eye and 
asked him, do you what you need from the Department of Defense? 
And he said there is someone from the Department of Defense in 
the room, and I could see that person, and we are engaged and 
we are working to get everything there.
    I then called each of the governors separately, and asked 
them off-line, tell me, is there something you did not want to 
say on a public open line about something that we need to do. 
Everybody said they were worried about it, but they felt we had 
all the items there.
    As I told Congresswoman Harman, my approach, and I think it 
is the correct approach, is to have component heads who are 
aligned in their priorities with me, who are keeping me 
informed; who understand that I am four-square behind giving 
them the tools they need to do the job; but if they are going 
to conduct the operation, I am not going to get in their hair. 
I am going to let them do their job. And that is the way I used 
to behave when I was an operator.
    Now, Mr. Brown said last Friday it was his decision not to 
go to the department and not to go to me. That had to do with 
his own views of what he wanted FEMA to be. I will let you draw 
a conclusion about whether you think that is appropriate 
behavior or not.
    Finally, as it relates to Tuesday, I carefully considered 
on Monday whether I should go into the area itself.
    Ms. Jackson-Lee. The levees were breaking on Monday.
    Secretary Chertoff. As I have explained, there was a 
problem getting accurate information to me, and I did not know 
about the levee breaching until early Tuesday morning. I made a 
judgment on Monday that my going to the actual scene itself and 
standing over the operator would simply confuse the question of 
who was actually in control of the operation. I still think 
that is the right decision. I did not go to the Coast Guard and 
hover over Admiral Collins while he was deploying Coast Guard 
helicopters because I trusted him and he in fact lived up to my 
trust. I had full visibility from the Coast Guard about what 
they were doing in rescue operations.
    What I did go down to do in Atlanta, which has no been much 
noticed in the press, is go specifically to the operations 
center of FEMA so I could monitor from the Operations Center in 
one of the regions what was going on and talk to the people 
themselves and get a ground-eye view. I did it at every step of 
the way, in full communication with my home office.
    As I said yesterday, the result was unsatisfactory. At the 
end of the day, we are paid for results, and if the results do 
not work, I do take responsibility for it. On the other hand, I 
have to be correct in stating what the actual facts are.
    Chairman King. The gentlelady from California?
    Ms. Lofgren. Thank you, Mr. Chairman.
    Since we have an abbreviated timeframe, I will just pose 
one question and ask for the answers in writing later, if I 
may. It has to do with the report in the New York Times earlier 
this month about a $385 million contract for Temporary 
Immigration Detention Centers that according to the newspaper 
article was awarded to Kellogg Brown and Root.
    If the article is true--I do not know if it is--it would 
amount to one-third of the department's whole budget for this 
function, if I am reading the budget correctly. I would like to 
know, first I would like a copy of the contract and the 
correspondence about this contract. I would like clarification 
about the role the department has played with the Army, if any, 
on this contract, and who is responsible for monitoring and 
ensuring compliance with the contract. I will take all the 
answers on that later, if I may.
    I would like to spend the remaining minute or two that I 
have on the issue of cyber-security. Congressman Mac Thornberry 
and I spent the entire 108th Congress working on this issue in 
the prior committee. Eventually, we did have a bill to create 
an assistant secretary, along with a number of other items. You 
ultimately reached the conclusion that that was right.
    So far as I am aware, unless something has changed in the 
last few days, that position is still vacant. I would like to 
know, it has been vacant more often than it has been filled. I 
think I would like to know how many vacancies there are in the 
entire division, how many of those that are filled are 
permanent, as compared to temporary, and of those that are 
filled on a permanent basis, how many are acting.
    I think this is an area that has lagged in attention, where 
we have substantial vulnerability. I am mindful that when the 
plan originally developed in the White House for cyber-security 
was adopted, some said it was not strong enough, but we have 
not yet actually implemented that plan, and it is almost three-
and-a-half years later. So I would like to know what is your 
plan to fill this position; what is the current status; and 
when are we going to actually see some action in this area 
where our vulnerabilities are so great.
    Secretary Chertoff. You are correct that we created the 
position and money was appropriated starting this past October 
1. We have not filled the position yet. I can tell you we are 
actively talking to candidates. I want to find the right 
candidate with the right skill set to recommend for the 
position to be filled.
    I will get you the information about exactly who occupies 
the other positions, which of course were not created on 
October 1, but existed previously.
    We actually just completed Operation Cyberstorm, which was 
a comprehensive exercise precisely targeted at looking at what 
our capabilities are, and what would happen in the event of a 
cascading series of cyber-attacks. It is something we have 
worked on with the private sector.
    I have not yet gotten a report on what the findings were of 
that particular exercise. I recognize the challenge in this 
particular area is that the assets and the expertise are 
largely in private hands. Some of it we need to do involves 
frankly the way in which software is developed and whether it 
has adequate protections and security.
    A second element is obviously early warning and information 
exchange when there is a problem, and we do have the CERT team 
up in Pittsburgh. The food is resilience, building capability 
to deal with what we would do if a portion of the Internet came 
down or if there were a denial of servers, and how do we work 
around that. I am hoping cyber-storm will give us some sense of 
where we are. I am very interested in filling this spot, I will 
tell you. Sometimes given the amount of money you can make in 
the private sector in this area, people who you might want to 
recruit do not want to give their stock options up.
    Ms. Lofgren. I am well aware of that, coming from Silicon 
Valley, but I would just note I appreciate the exercises and 
the like, but the fact is the plan, inadequate as it is, has 
not even begun to be implemented. I think we are out of time, 
and I appreciate that, but it is easy, well, it is not easy, 
but it is apparent that we need to focus on many of the things 
that we have, but lurking behind that is a tremendous 
vulnerability in every sector in the cyber area, and we have 
totally dropped the ball on it. The private sector is wary of 
even dealing with our department. They do not think that we can 
keep their secrets secure and we have a huge problem there.
    So I will yield back, with an invitation to discuss this 
with you, or your new assistant secretary, sooner rather than 
later, so that we cannot sit here being sorry that we did not 
pay attention when we should have.
    Secretary Chertoff. Let me just conclude by saying I am 
sensitive about the issue of concern about proprietary 
information. I think that this is an area where we do need to 
be able to afford the private sector in general a confidence 
level that their proprietary secrets will be protected. 
Otherwise, we cannot really expect them to give us the 
information we need in order to protect the country.
    Chairman King. Mr. Secretary, I want to thank you for your 
testimony. I think several members of the committee made it 
clear that they would like to have more of a dialogue with you 
as the year goes on. We certainly look forward to that with 
you.
    Again, thank you for your testimony and thank you for your 
service.
    Secretary Chertoff. I look forward to doing that, Mr. 
Chairman.
    Chairman King. I understand the gentleman from Mississippi 
has a request.
    Mr. Thompson. Yes, Mr. Chairman.
    I would like unanimous consent to include in the record of 
the hearing today a report produced by the minority staff on 
FEMA and some recommendations as to how it can be improved.
    Chairman King. I am not going to object, but I would ask in 
the future, if the Ranking Member would make that available to 
us in advance so staff could take a look at it so we do not get 
blindsided on it. But without objection, so ordered.
    Mr. Thompson. Thank you, Mr. Chairman.
    Ms. Jackson-Lee. Mr. Chairman, I have a request.
    Chairman King. The gentlelady from Texas?
    Ms. Jackson-Lee. Mr. Chairman, questions that I was not 
able to ask, I would like to be submitted into the record.
    I would also like to ask, and I will follow up with a 
letter, I would like to have the secretary answer why he did 
not return my personal phone calls in the waning days of 
Hurricane Katrina.
    I would like to also commend to this committee Omnibus Bill 
4197, which is the Congressional Black Caucus response to the 
Hurricane Katrina, and also would like to commend the future 
hearing, Mr. Chairman, on the removal of FEMA from the 
Department of Homeland Security, and have it as an independent, 
freestanding cabinet position, as it has been previously in the 
past.
    I will conclude by joining in your comments. I believe that 
if the secretary had been more frequent before this committee, 
we would have been able together to work on some of the 
tragedies that occurred in Hurricane Katrina.
    I thank the chair.
    Chairman King. Without objection, the gentlelady's request 
will be made part of the record.
    I would advise that members of the committee may have some 
additional questions. I would ask the secretary to respond to 
those in writing. The hearing record will be held open for 10 
days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 12:28 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
